<html>
<title> - WHY CAN'T DHS BETTER COMMUNICATE WITH THE AMERICAN PEOPLE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       WHY CAN'T DHS BETTER COMMUNICATE WITH THE AMERICAN PEOPLE?

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2013

                               __________

                           Serial No. 113-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
85-687                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
                      Ryan Consaul, Staff Director
                   Deborah Jordan, Subcommittee Clerk
                  Tamla Scott, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Mr. Robert Jensen, Principal Deputy Assistant Secretary, Office 
  of Public Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Ms. Tamara Kessler, Acting Officer for Civil Rights and Civil 
  Liberties, U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18

                                Panel II

Mr. William Braniff, Executive Director, National Consortium for 
  the Study of Terrorism and Responses to Terrorism:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Mr. Douglas G. Pinkham, President, Public Affairs Council:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47


       WHY CAN'T DHS BETTER COMMUNICATE WITH THE AMERICAN PEOPLE?

                              ----------                              


                         Friday, June 14, 2013

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Hudson, Barber, Payne, and 
O'Rourke.
    Mr. Duncan. The Committee on Homeland Security Subcommittee 
on Oversight and Management Efficiency will come to order.
    The purpose of this hearing is to examine the Department of 
Homeland Security's ability to effectively communicate with the 
American people. I appreciate our panelists' being here today.
    I will now recognize myself for an opening statement.
    Whether it is with Members of Congress, the press, or 
directly to the American people, 10 years after its 
establishment the Department of Homeland Security seems to have 
developed serious challenges communicating its goals, 
priorities, tactics, and missions. This administration 
specifically has an increasing sense of a bunker mentality in 
responding to the public, engaging with stakeholders, and 
collaborating with industry and advocacy groups.
    Perhaps more disturbing is the Department's lackadaisical 
approach to addressing legitimate questions and concerns raised 
by the American people on a host of issues, from TSA's 
screening policies to DHS ammunition purchases to the impact 
that the sequester would have on the Department and on its 
components. When DHS officials or their colleagues at the 
components do respond to legitimate questions concerning 
Departmental policies or actions, responses are often defensive 
and condescending.
    I found this out first-hand when I raised serious visa 
security issues with Secretary Napolitano in April, only to be 
told that my question was not worthy of an answer because, and 
I quote: ``It is so full of misstatements and misapprehensions 
that it is just not worthy of an answer.'' You know, that is a 
heck of a way to speak to a Member of Congress who represents 
almost 700,000 American taxpayers who help foot the bill for 
the Department's $60 billion budget.
    DHA's inability to connect with the American people has 
been a running theme through the first four Oversight 
Subcommittee hearings we have held so far this Congress. The 
former Governor of Virginia and chairman of the Gilmore 
Commission, Jim Gilmore, raised concerns with DHS's ability to 
share information at our February subcommittee hearing. He said 
that one of the primary goals of the Department should be to 
have an actual discussion with the American people.
    The inability of DHS to sufficiently address concerns 
raised by the general public or even to engage in a discussion 
erodes trust in the Department, and that is my concern. An 
uncommunicative Department of Homeland Security that is seen as 
consistently stonewalling increases people's skepticism of DHS, 
it strains the institution's credibility, and it makes people 
question the motivations of the Department's leadership. How 
does this serve DHS's critical mission to defend the homeland?
    Homeland Security Presidential Directive 5 calls on the 
Secretary of the Department to ensure that information related 
to domestic incidents is gathered and shared with the public, 
the private sector, and with State and local authorities. To 
this end, FEMA uses a variety of tools to communicate with the 
public on disaster response and emergency preparedness.
    But it is disappointing to me that a country that leads the 
world in effective advertising and marketing cannot be as 
effective in communicating with its own citizenry on even the 
most basic policies related to homeland security. For example, 
DHS ignored questions regarding the Department's ammunition 
purchases for weeks, if not months. The Secretary acknowledged 
in the committee's April hearing on DHS's budget that the 
Department could have gotten ahead of the ball on this issue. 
However, the prolonged silence led many in the public to come 
up with their own conclusions and scoff at the official DHS 
explanation.
    In February 2013, Immigration and Customs Enforcement, ICE, 
released 2,000 illegal aliens into communities across Texas and 
the United States without rhyme or reason, only to subsequently 
blame the effects of the sequestration despite the fact that it 
had yet to go into effect.
    DHS aggressively and proudly promotes its ``See Something, 
Say Something'' campaign, including at events all over the 
country attended by Secretary Napolitano. Yet a DHS-sponsored 
report released only hours before the Boston Marathon bombings 
found that almost 60 percent of Americans said they have never 
heard anything about the program.
    DHS's Blue Campaign, which seeks to promote public 
awareness of human trafficking within the United States, could 
also be a game-changer if DHS did a better job communicating 
its message and working with key stakeholders.
    Undoubtedly, social media has changed the game for the 
Federal Government in the terms of the number of outlets and 
issues it has to be aware of and responsive to. However, the 
Federal agencies now have unprecedented opportunities to 
interact with the very people they serve on a daily basis, 
which is critical when it concerns matters of health, safety, 
and emergency response. I often use social media to communicate 
with my constituents, and I know that DHS has an array of 
social media.
    My question is: How does DHS or its components decide which 
issues are worthy of a response or exactly what information is 
important enough to push to the general public via this media? 
What exactly is the Department's strategy in communicating its 
missions and policies?
    For instance, TSA's Twitter account could be a boon for the 
agency by pushing out real-time information to travelers or in 
clearly communicating travel tips to expedite air travel 
screening. Instead, you find tweets about travel tips for 
campers and fishers and TSA's ``weirdest finds.''
    As Douglas Pinkham, one of our witnesses here today, 
explained in his prepared testimony, ``Social media programs 
could be launched because they represent the highest strategic 
use of corporate resources, not because everyone else seemed to 
have a social media program.''
    Look, Americans don't want to distrust their Government. 
Americans don't want to believe that Big Brother is listening 
to their phone calls or reading their private correspondence. 
Americans don't want to believe that the Government is buying 
up ammo so that it won't be available to them when they go to 
their sporting goods store. Americans don't want to believe 
that their Government is buying mine-resistant armored 
personnel carriers, or MRAPs, for use by law enforcement in 
huge quantities. But they do distrust Government when there is 
a failure to communicate. Americans still believe in the 
concept of innocent until proven guilty, but, you know, they 
don't feel that way when they go through a TSA screening. In 
light of the recent IRS targeting and NSA snooping and the AP-
Fox News-Justice Department issue, Americans are beginning to 
distrust their Government more and more.
    So we can do better. You can do better, we can do better in 
communicating with the American people and trusting them with 
the truth, trusting them with the facts, not by waiting over 3 
months to respond to questions about procurement contracts, as 
an example, or failing to respond to a Member of Congress when 
he asks a legitimate question, but by trusting the American 
people with the facts and the truth.
    It seems to me that, more than a decade after the September 
11 attacks and especially in light of April's Boston Marathon 
bombings, that the American people are resilient and receptive 
and are more than willing to do their part in securing the 
homeland. It is my hope that the Department will try to 
capitalize on this through enhancing its responsiveness and 
communication with the public and their stakeholders. Doing so 
would enhance DHS's credibility, it would help build trust, and 
it would strengthen the relationship between the Department and 
the American people.
    The Chair will now recognize the Ranking Minority Member of 
the subcommittee, the gentleman from Arizona, Mr. Barber, for 
any statement he may have.
    [The statement of Mr. Duncan follows:]
                   Statement of Chairman Jeff Duncan
                             June 14, 2013
    Whether it is with Members of Congress, the press, or directly to 
the American people, 10 years after its establishment, the Department 
of Homeland Security seems to have developed serious challenges 
communicating its goals, priorities, tactics, and missions.
    This administration specifically has an increasing sense of a 
bunker mentality in responding to the public, engaging with 
stakeholders, and collaborating with industry and advocacy groups. 
Perhaps more disturbing is the Department's lackadaisical approach 
addressing legitimate questions and concerns raised by the American 
people on a host of issues from TSA's screening policies to DHS 
ammunition purchases, to the impact the sequester would have on the 
Department and its components.
    When DHS officials or their colleagues at the components do respond 
to legitimate questions concerning Departmental policy or actions, 
responses are often defensive and condescending. I found this out 
first-hand when I raised serious visa security issues with Secretary 
Napolitano in April only to be told that my question was not worthy of 
an answer because--and I quote: ``It is so full with misstatements and 
misapprehensions that it's just not worthy of an answer.'' That is a 
heck of a way to speak to a Member of Congress who represents almost 
700,000 American taxpayers who help foot the Department's $60 billion 
budget.
    DHS's inability to connect with the American people has been a 
running theme through the first four Oversight Subcommittee hearings we 
have held so far this Congress. Former Governor of Virginia and 
Chairman of the Gilmore Commission, Jim Gilmore, raised concerns with 
DHS's ability to share information at our February subcommittee 
hearing. He said that one of the primary goals of the Department should 
be to have an actual discussion with the American people.
    The inability of DHS to sufficiently address concerns raised by the 
general public--or even to engage in a discussion--erodes trust in the 
Department, and that is my concern. An uncommunicative Department of 
Homeland Security that is seen as consistently stonewalling increases 
people's skepticism of DHS, strains the institution's credibility, and 
makes people question the motivations of the Department's leadership. 
How does this serve DHS's critical mission to defend the homeland?
    Homeland Security Presidential Directive 5 calls on the Secretary 
of the Department to ensure that information related to domestic 
incidents is gathered and shared with the public, the private sector, 
and with State and local authorities. To this end, FEMA uses a variety 
of tools to communicate with the public on disaster response and 
emergency preparedness.
    But it is disappointing to me that a country that leads the world 
in effective advertising and marketing cannot be as effective in 
communicating with its own citizenry on even the most basic of policies 
related to homeland security. For example:
  <bullet> DHS ignored questions regarding the Department's ammunition 
        purchases for weeks, if not months. The Secretary acknowledged 
        in the committee's April hearing on DHS's budget that the 
        Department could have gotten ahead of the ball on this issue. 
        However, the prolonged silence led many in the public to come 
        up their own conclusions and scoff at the official DHS 
        explanation.
  <bullet> In February 2013, the Immigration and Customs Enforcement 
        (ICE) released about 2,000 illegal aliens into communities 
        across Texas and the United States without rhyme or reason, 
        only to subsequently blame the effects of sequestration, 
        despite the fact that it had yet to go into effect.
  <bullet> DHS aggressively and proudly promotes its ``See Something 
        Say Something'' campaign, including at events all over the 
        country attended by Secretary Napolitano. Yet a DHS-sponsored 
        report released only hours before the Boston Marathon bombings 
        found that almost 60 percent of Americans said they'd never 
        heard anything about the program.
  <bullet> DHS's Blue Campaign which seeks to promote public awareness 
        of human trafficking within the United States could also be a 
        game changer if DHS did a better job communicating its message 
        and working with key stakeholders.
    Undoubtedly, social media has changed the game for the Federal 
Government in terms of the number of outlets and issues it has to be 
aware of and responsive to. However, Federal agencies now have 
unprecedented opportunities to interact with the very people they serve 
on a daily basis, which is critical when it concerns matters of health, 
safety, and emergency response.
    I often use social media to communicate with my constituents and 
know that DHS also has an array of social media. My question is: How 
does DHS or the components decide which issues are worthy of a response 
or exactly what information is important enough to push to the general 
public? What exactly is the Department's strategy in communicating its 
missions and policies?
    For instance, TSA's Twitter account could be a boon for the agency 
in pushing out real-time information to travelers, or in clearly 
communicating travel tips to expedite air travel screening. Instead, 
you find Tweets about ``Travel Tips for Campers and Fishers'' and 
``TSA's Weirdest Finds.'' As Douglas Pinkham, one of our witnesses here 
today, explained in his prepared testimony: ``Social media programs 
should be launched because they represent the highest strategic use of 
corporate resources, not because everyone else seems to have a social 
media program.''
    It seems to me that more than a decade after the September 11 
attacks, and especially in light of April's Boston Marathon bombings, 
that the American people are resilient and receptive and more than 
willing to do their part in securing the homeland. It is my hope that 
the Department will try to work to capitalize on this through enhancing 
its responsiveness and communication with the public and their 
stakeholders. Doing so would enhance DHS's credibility, build trust, 
and strengthen the relationship between the Department and the American 
people.

    Mr. Barber. Well, thank you, Mr. Chairman. Thank you for 
convening this hearing.
    Thanks to the witnesses for being with us this morning.
    Every day, approximately 280,000 employees in the 
Department of Homeland Security work diligently to carry out 
the mission and functions of the Department, and they very 
often do this job without thanks and public acknowledgment of 
their efforts to keep our country safe from harm.
    Just on a personal level, I can tell you, when I go through 
checkpoints--and we have a couple in my district, interior 
checkpoints--I always make a point, after I have been cleared, 
of saying to the agents, ``Thank you for your service.'' They 
look at me like, ``Who are you? What is going on?'' I never 
identify myself as a Member, but I just want to thank them. The 
look on their face tells me that very few people ever do that. 
We need to do better. These men and women are putting their 
lives on the line every single day for our country.
    But I believe it is also the role of the Department's 
Office of Public Affairs to communicate effectively with the 
public the programs and policies of the Department and to 
provide the public with necessary homeland security information 
in a timely and open manner.
    It has been, at times, disappointing to see that the 
dissemination of this information to the public has not always 
been handled in an effective manner. The Department has 
struggled sometimes to communicate to the public, not only when 
things have gone wrong, but also when things have gone right.
    Just recently, for example, the U.S. Customs and Border 
Protection seized nearly $1 million in methamphetamine and 
heroine when a Mexican man and a Tucson woman were arrested as 
they attempted to smuggle those drugs into the country. Just 
this past week in southern Arizona, CBP officers arrested two 
people as they attempted to smuggle more than $1.67 million in 
currency going south into Mexico.
    Now, these are examples, actually, of successes. I am 
pleased to say that both of them were covered locally and the 
credit was given where credit was due. We need more of this 
kind of public information, and we need more of these success 
stories being told, because there are a lot of them.
    But the Department also needs to be transparent with the 
public they serve, and that means communicating effectively at 
all times. Unfortunately, the Department has struggled to 
address its shortfalls in this area.
    For example, conflicting information about the impact of 
sequestration and the handling, as the Chairman pointed out, of 
the release of detainees are two examples of the Department's 
failing to get ahead of the story in an effort to avoid public 
fallout.
    In the case of the released detainees, it is particularly 
troublesome. ICE first reported that only a few hundred 
detainees had been released. ICE later admitted that more than 
2,000 detainees were released but did not provide details about 
their release. In fact, Members of Congress did not find out 
until it was in the newspapers that these detainees had been 
released. Then DHS waited months before actually disclosing 
that 622 detainees had criminal records and 32 of those had 
multiple felony convictions.
    Not only does ICE's action and the lack of transparency 
create confusion among the public, but it also puts citizens at 
risk. I might add, the sheriff in the adjoining county to my 
district, where many of these detainees were released, did not 
know that they had been released until he, too, read it in the 
newspaper.
    Unfortunately, there are times when the Department seems to 
put image before information flow. According to an article 
published earlier this year in the Arizona Daily Star, the main 
paper in Tucson, Arizona, CBP public affairs officers in 
southern Arizona and along the Southwest Border were told to 
deny requests for information, ride-alongs, and visits to the 
border.
    CBP officials were told by their branch chief that if 
anyone on the local, regional, National, or international level 
made such a request, they must inform the reporter that ``you 
will see what you can do and get back to them and then send it 
to me.'' When the same reporter asked CBP for their use-of-
force policy, he was flat-out denied the ability to obtain a 
copy.
    This caused, I think, great harm to the image of the 
Department, even as it was trying, I suppose, to protect it. 
Subsequently, when this newspaper article was published, the 
information officer reversed the policy and said that they 
would be able to able to accommodate local media requests. This 
kind of confusing back-and-forth, I think, does not help DHS in 
its mission.
    This type of information management is problematic, 
especially considering DHS may have more daily contact with the 
American public than any other agency. Approximately 50,000 
transportation security officers, TSA officers, screen 1.8 
million passengers every day at more than 450 airports across 
the country. On a typical day, over 960,000 passengers and 
pedestrians interact with Customs and Border Patrol personnel 
by air, land, and sea. Furthermore, the Federal Emergency 
Management Agency, or FEMA, assists thousands of individuals 
affected by natural disasters and other hazardous situations.
    Let me just comment here that, when FEMA goes to work, I 
believe it manages public information very well. It seems to me 
that whatever is going on in FEMA makes sense. What is going 
on, perhaps, in CBP does not. We need to make sure that we 
replicate the approach that FEMA takes with the CBP officers 
and agents on the ground.
    Given the broad scope of the Department's interaction with 
the public, it is imperative that it communicates effectively 
with the American public not only about what the Department has 
done but what it plans to do. One way the Department could 
improve its public image or interactions is, where applicable, 
hold open meetings with the public about new policies and 
programs before they are implemented--before they are 
implemented.
    I believe input directly from constituents and communities 
affected by policy is critical. That is why I introduced an 
amendment to H.R. 1417, the Border Security Results Act of 
2013, which was passed ultimately unanimously by the full 
committee, which directs the CBP to conduct public meetings 
with border community members to get their input into how we 
can best secure our borders. The people who live on the border 
or near the border or work on the border or near the border 
have eyes and ears unlike anyone else. They could be very 
helpful; we need to include them in any kind of policy 
development going forward.
    Having such meetings have proved to be very beneficial in 
my district. Through such meetings, the Department personnel 
speak directly and hear directly from individuals who live and 
work along the border. This dialogue not only aids in informing 
policy, it also improves the Department's communication with 
the public.
    My predecessor, Congresswoman Giffords, urged the Border 
Patrol, when she was in office, to establish stakeholder 
meetings in our district. We now have five functioning 
stakeholder groups. They meet every month. Interactions between 
them, the citizens, and the Border Patrol is constant, and it 
has definitely improved communications in my district. I urge 
other sectors in the Border Patrol to do the same.
    Last, I would like to address an issue that I have 
addressed here before, and that is the unfortunate low morale 
in the Department. Low morale affects every aspect of an 
organization, and DHS consistently, unfortunately, ranks at the 
bottom when it comes to employee morale. In a 2012 study, DHS 
was ranked 19th out of 19 large agencies in the Federal 
Government when it came to employee satisfaction.
    Low morale causes a number of problems, including a high 
rate of turnover, which leads to complications in both internal 
and public communications. I urge the Secretary and the 
Department to take a very close look at the causes of low 
morale and high turnover in the agency and to institute the 
appropriate reforms in leadership development to stem this 
tide.
    I look forward to hearing specific steps the Department 
will take to improve the way it communicates information and 
policies to the general public.
    I thank the witnesses for their participation.
    I yield back the balance of my time.
    [The statement of Mr. Barber follows:]
                 Statement of Ranking Member Ron Barber
                             June 14, 2013
    Every day approximately 280,000 employees at the Department of 
Homeland Security work diligently to carry out the mission and 
functions of the Department.
    Very often they do this job without thanks and public 
acknowledgement of their efforts to keep our country safe from harm.
    It is the role of the Department's Office of Public Affairs, to 
communicate to the public the programs and policies of the Department 
and to provide the public with necessary homeland security information.
    It has been at times disappointing to see that the dissemination of 
this information to the public has not always been handled in an 
effective manner.
    The Department has struggled to communicate to the public, not only 
when things have gone wrong, but also when things have gone right.
    Just recently, U.S. Customs and Border Protection seized nearly $1 
million in methamphetamine and heroin when a Mexican man and Tucson 
woman were arrested as they attempted to smuggle these drugs into the 
country.
    And just this week, in southern Arizona, CBP officers arrested two 
people when they attempted to smuggle more than $1.67 million in 
currency into Mexico.
    The Department needs to be transparent with the public they serve, 
and that means communicating effectively at all times.
    Unfortunately, the Department has struggled to address its 
shortfalls in this area.
    Conflicting information about the impact of sequestration and the 
handling of the release of detainees are but two examples of the 
Department failing to ``get ahead of the story'' in an effort to avoid 
public fallout.
    The case of the released detainees is particularly troublesome. ICE 
first reported that only a few hundred detainees had been released. ICE 
later admitted that more than 2,000 detainees were released, but did 
not provide details about the released detainees. DHS waited months 
before disclosing that 622 detainees had criminal records, and 32 of 
those had multiple felony convictions. Not only does ICE's action and 
lack of transparency create confusion among the public, but also puts 
citizens at risk.
    Unfortunately, there are times when the Department seems to put 
image control before information flow.
    According to an article published earlier this year in the Arizona 
Daily Star, CBP public affairs officers in southern Arizona and along 
the Southwest Border were told to deny requests for information, ride-
alongs, and visits to the border.
    CBP officials were told by their Branch Chief that if anyone--on 
the local, regional, National, or international level--made such a 
request, that they must ``inform the reporter that you will see what 
you can do and get back to them. Then send it to me.''
    When the same reporter asked CBP for their use-of-force policy, he 
was flat-out denied the ability to obtain a copy.
    This type of information management is problematic, especially 
considering DHS may have more daily contact with the American public 
than any other agency.
    Approximately 50,000 Transportation Security Officers screen 1.8 
million passengers everyday at more than 450 airports across the 
country.
    And on a typical day, over 960,000 passengers and pedestrians 
interact with Customs and Border personnel, by air, land, and sea.
    Furthermore, the Federal Emergency Management Agency assists 
thousands of individuals affected by natural disasters and other 
hazardous situations.
    Given the broad scope of the Department's interaction with the 
public, it is imperative that it communicates effectively with the 
American public; not only about what the Department has done, but also 
about what it plans to do.
    One way the Department should improve its public interactions is, 
when applicable, hold open meetings with the public about new policies 
and programs before they are implemented.
    I believe input directly from constituents and communities affected 
by policy is critical, that's why I introduced an amendment to H.R. 
1417, the Border Security Results Act of 2013, directing CBP to conduct 
public meetings with border community members to get their input into 
how we can best secure our borders.
    This amendment passed out of the committee and I am hopeful that it 
will ultimately become law.
    Having such meetings have proved to be very beneficial in my 
district.
    Through these meetings Department personnel speak with and hear 
from individuals who live and work on the border.
    This dialogue not only aids in informing policy it also improves 
the Department's communication with the public.
    Last, I would like to address an issue I have addressed here 
before. Low morale affects every aspect of an organization and DHS 
consistently ranks at the bottom when it comes to employee morale. In a 
2012 study DHS was ranked 19th of 19 large agencies in the Federal 
Government when it came to employee satisfaction. Low morale causes a 
number of problems, including a high rate of turnover which leads to 
complications in both internal and public communications.
    I urge the Secretary and the Department to take a close look at the 
cause of low morale and high turnover in the agency and to institute 
appropriate reforms and leadership development to stem this tide.
    I look forward to hearing specific steps the Department will take 
to improve the way it communicates information and policy to the 
general public, and I thank the witnesses for their participation.

    Mr. Duncan. Thank you, Mr. Barber.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 14, 2013
    When the Department of Homeland Security was established, it was 
clear that this newly-created agency would interface with the American 
people and serve as a source of public information.
    In fact, included in the original documentation that laid the 
framework for the Department was the statement that DHS would serve as 
``One department to coordinate communications with State and local 
governments, private industry, and the American people about threats 
and preparedness.''
    To that end, how the Department communicates with the public and 
whether the American people are fully-informed is important.
    The purpose of the Office of Public Affairs is to coordinate the 
public affairs activities of all of the Department's components and 
offices, and serve as the Federal Government's lead public information 
office during a National emergency or disaster.
    Unfortunately, much like other areas throughout the Department, 
there is a lack of cohesion between the Department's headquarters-based 
Public Affairs personnel and public affairs personnel operating in the 
components.
    Each Department component has its own Office of Public Affairs that 
handles component-level communication strategies and press releases.
    This structure runs afoul of the ``One DHS'' concept.
    Too often, this has resulted in component-level Public Affairs 
offices and the headquarters Office of Public Affairs disseminating 
different messages.
    To make matters worse, the high turnover in leadership at the 
Office of Public Affairs has resulted in a further divide.
    Since January 2003, there have been ten Assistant Secretaries of 
Public Affairs, serving in either an Acting or Permanent role.
    This turnover has left the office in a constant state of influx and 
has affected its ability to effectively carry out its mission.
    Public Affairs is also responsible for communicating many of the 
Department's public campaigns.
    One such campaign is ``If You See Something, Say Something,'' which 
was the brainchild of the New York Metropolitan Transit Authority 
(MTA).
    The Department receives some funds to carry out this campaign; 
however, the campaign and slogan is owned by MTA.
    I am interested in determining how funding for the campaign is 
shared and whether taxpayer dollars from the Department's scarce budget 
are paid to New York for the use of a slogan that, according to 
testimony that we will soon hear, is not widely-recognized.
    Finally, I am also interested in hearing testimony from the Office 
of Civil Rights and Civil Liberties on how they address the public's 
civil rights and civil liberties concerns, as they relate to the 
Department's programs and policies.

    Mr. Duncan. We are pleased to have today two very 
distinguished panels of witnesses on this important topic.
    The first panel, I will introduce both of you, and then I 
will recognize you.
    Mr. Robert Jensen is currently the principal deputy 
assistant secretary for public affairs at the Department of 
Homeland Security, coordinating public affairs activities of 
all the Department's components and offices, and serves as the 
Federal Government's lead public information officer during a 
National emergency or disaster.
    I understand you just got back in the country. Well, 
welcome home, sir.
    In 29 years of civil service, Mr. Jensen has served in 
numerous positions in civilian and military capacities, most 
recently as the acting director of external affairs for the 
Federal Emergency Management Agency. In addition to serving 2 
years in Iraq, he has been deployed to support the 
communications efforts during Deepwater Horizon, the massive 
earthquake in Haiti, Hurricane Ike in 2008, and Hurricane Sandy 
in 2012.
    Ms. Tamara Kessler is the acting officer for civil rights 
and civil liberties at the Department of Homeland Security. 
Prior to this position, Ms. Kessler served as deputy officer. 
As acting officer, Ms. Kessler is responsible for integrating 
civil rights and liberties into all of the Department 
activities through promoting respect for civil rights and 
liberties in policy creation, investigating and resolving 
complaints, and leading the Department's equal employment 
opportunity programs.
    Before joining CRCL, Ms. Kessler spent 20 years as an 
attorney for the Department of Justice Inspector General and 
associate counsel at the Office of Professional Responsibility.
    I thank you both for being here today.
    The Chairman will now recognize Mr. Jensen to testify.

    STATEMENT OF ROBERT JENSEN, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY, OFFICE OF PUBLIC AFFAIRS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Jensen. Good morning. Thank you, Chairman Duncan, 
Ranking Member Barber, and Members of the committee.
    I am Bob Jensen, as was just introduced, and I serve as the 
principal deputy assistant secretary for public affairs for the 
Department of Homeland Security. I am the senior career civil 
servant in the Office of Public Affairs. You also mentioned 
that I was detailed back to FEMA last year to serve on the 
ground as the lead for communications efforts in New York for 
the month after Sandy hit.
    I am here today to talk to you about the role of DHS Office 
of Public Affairs. We are responsible for the oversight and 
management of all external and internal communications for the 
Department, including during major incidents that range from 
terrorist attacks, natural disasters, and mass casualties 
shootings to other threats impacting the United States.
    We provide timely, accurate information to a wide range of 
stakeholders, and this includes the American public, the media, 
Federal, State, local, Tribal, and territorial government 
officials, the private sector, and the Department's more than 
240,000 employees. We also provide strategic guidance and 
support to more than a dozen DHS component public affairs 
offices to ensure consistent, coordinated messages, procedures, 
and outreach.
    We take these responsibilities very seriously. Our outreach 
helps keep the public informed about our efforts to combat 
terrorism and violent extremism. It supports effective disaster 
preparedness and response activities. It helps to promote 
transparency in how we are using taxpayer resources in the 
Department.
    The Office of Public Affairs use a variety of ways to 
communicate about the Department's programs, policies, and 
procedures. For example, we provide information directly to the 
public through our Department and component websites as well as 
through our blogs and social media accounts and Facebook, 
Twitter, and YouTube.
    The Office of Public Affairs also manages or provides 
oversight and inputs several of the Department's public 
outreach programs. These include the ``If You See Something, 
Say Something'' public awareness campaign, which encourages the 
public to contact local law enforcement if they see suspicious 
behavior or activity; the Ready campaign, which is designed to 
educate and empower the public to prepare for and respond to 
emergencies, including natural and man-made disasters; National 
Preparedness Month, held each September to encourage Americans 
to take simple steps to prepare for emergencies in their homes, 
businesses, and schools; and, also, the Stop.Think.Connect 
campaign, designed to increase public understanding of cyber 
threats and how individual citizens can develop safer cyber 
habits that will protect themselves on-line.
    We have significant responsibilities in the event of a 
major domestic incident or crisis. Building our lessons learned 
from 9/11 and subsequent major National incidents, the Federal 
Government and DHS developed instant communication procedures 
to coordinate through the interagency and communicate with the 
American public. These include prearranged communication 
protocols as well as three communication networks that include 
approximately 1,300 key communicators across the Nation. These 
are from Federal, State, and local agencies and even the 
private sector. These networks can be activated within minutes 
and are used to develop and distribute public information and 
coordinate and deconflict information and activities.
    Since 2003, for example, we have activated our National 
Incident Communications Conference Line, which brings together 
all the Federal communicators, nearly 450 times. In addition, 
we have developed resources for use during major threats, 
including the National Joint Information Center, which is 
located in our headquarters building, and the Domestic 
Communications Strategy, which provides senior Federal 
communicators with options for use during a domestic attack, 
serious threat, or other incident.
    DHS is fully committed to communicating information to our 
many partners in a way that is timely, accurate, transparent, 
and helps maintain confidence in the Department's work.
    Chairman Duncan, Ranking Member Barber, and Members of the 
committee, thank you for this opportunity to discuss DHS 
communications, and I look forward to answering your questions.
    [The prepared statement of Mr. Jensen follows:]
                  Prepared Statement of Robert Jensen
                             June 14, 2013
                              introduction
    Good morning, Chairman Duncan, Ranking Member Barber, and Members 
of the subcommittee: My name is Robert Jensen and I am the principal 
deputy assistant secretary for public affairs at the U.S. Department of 
Homeland Security (DHS) Office of Public Affairs. In this role I 
support the Department's efforts to communicate our policies and 
programs to the American people and our many partners across the public 
and private sectors, and I support senior leadership communication 
across DHS.
    Prior to this position, I served as acting director of external 
affairs at the Federal Emergency Management Agency (FEMA) and also as 
its deputy director. I have held a variety of public affairs-related 
positions throughout my 29 years of Federal service, including director 
for public affairs and communications at the National Security Council; 
director for communications operations for Iraq and Afghanistan and 
director of the Iraq communications desk at the Department of Defense; 
director of National media outreach and senior communications advisor 
for the multi-national force--Iraq; and acting spokesman for the U.S. 
Embassy in Baghdad.
    In addition to serving 2 years in Iraq, I also deployed to set-up 
and support U.S. Government communications during the Deepwater Horizon 
Oil Spill, the Joint Information Center after the earthquake in Haiti 
in January 2010, and I served as external affairs operations director 
for more than 30 major disasters, including Hurricane Ike in 2009 and 
Hurricane Sandy in 2012.
                      dhs office of public affairs
    The DHS Office of Public Affairs is responsible for the oversight 
and management of all external and internal communications for the 
Department, including communications during major incidents that range 
from terrorist attacks, natural disasters, mass casualty shootings, and 
other threats or hazards impacting the United States.
    The Office of Public Affairs provides timely, accurate information 
to a wide range of stakeholders, including the American public, media, 
Federal, State, local, Tribal, and territorial Government partners, the 
private sector, and the Department's more than 240,000 employees. We 
work directly with offices across the Department to coordinate public 
affairs outreach and messaging, including the Office of the Secretary, 
Office of Intergovernmental Affairs, Office of Legislative Affairs, and 
the Private Sector Office.
    In addition, the Office of Public Affairs provides strategic 
guidance and support to more than a dozen DHS component public affairs 
offices, including the Transportation Security Administration, U.S. 
Immigration and Customs Enforcement, U.S. Customs and Border 
Protection, U.S. Citizenship and Immigration Services, the U.S. Coast 
Guard, the U.S. Secret Service, and FEMA, among others. Through regular 
interaction with these offices, we ensure consistent, coordinated 
communications procedures and outreach.
    We take our communications responsibilities very seriously. 
Communicating timely, accurate information to the public supports 
cooperation with security measures and keeps our constituencies 
informed of changes or requirements with Departmental programs and 
policies. An engaged and vigilant public also remains critical to our 
efforts to combat terrorism and violent extremism. The public is often 
the first to recognize an emerging threat in communities and notify the 
appropriate authorities.
    Timely, accurate communications outreach also directly supports 
effective disaster preparedness and response activities. By providing 
information to the public on appropriate steps to take before, during, 
and after disasters, we can often lessen their impact, build more ready 
and resilient communities, and save lives. Effective communications 
also help maintain public confidence in the Department's activities and 
promote transparency in how taxpayer resources are being put to use.
                        dhs communications tools
    The Office of Public Affairs uses a variety of means to communicate 
the Department's programs, policies, and procedures to the American 
people and our partners.
    The DHS Press Office is the primary point of contact for news media 
seeking information about DHS. The function of the office is proactive 
in pushing out stories and policies about DHS, and reactive in 
responding to media inquiries pertaining to activities of the 
Department. The Press Office coordinates media relations and serves as 
the spokespersons for the Secretary, senior leadership, and the 
Department. In addition, the office is responsible for identifying and 
executing strategic, proactive media opportunities. Press Office staff 
also coordinate TV, radio, print, and new media (blogs, podcasts) 
opportunities for DHS principals and provide general communications 
counsel and support to the Secretary, deputy secretary, assistant 
secretary for public affairs, and other DHS leadership.
    The DHS Office of Strategic Communications provides overall 
management for implementation of communications plans related to DHS 
programs and policies, rules and regulations--including branding 
initiatives--and complex domestic and international issues requiring 
outreach and public education. The Office of Strategic Communications 
also coordinates and supports public appearances by DHS officials, 
including the Secretary, deputy secretary, and other senior leadership. 
Through the DHS Speaker's bureau, we ensure Departmental 
representatives with the appropriate level of subject matter expertise 
appear on the Department's behalf at public events, conferences, and 
stakeholder engagement.
    The DHS Office of Multimedia serves as the Department's official 
point of contact for entertainment-oriented motion picture, television, 
advertising, video, and multimedia productions or enterprises. The 
multimedia office ensures that DHS speaks with one voice in working 
with the industry and provides formal support to multimedia production 
sources to ensure that DHS missions, personnel, and services are 
truthfully and accurately represented.
    DHS Web Communications streamlines access to DHS services on-line 
and executes a cohesive strategy for web-content management and web-
hosting services for all DHS public-facing websites. The Department 
maintains a very active on-line presence, leveraging a variety of 
digital tools to reach our audiences. This includes the DHS website 
(www.dhs.gov) and extensive use of social media, such as Facebook and 
Twitter.
    In April 2013, the DHS website had more than 1.28 million visits 
and more than 1 million unique visitors. We currently have 
approximately 211,000 Twitter followers and more than 72,000 Facebook 
fans. We regularly leverage these outlets to promote DHS initiatives 
and programs, provide information regarding our mission and the 
missions of DHS components, and to communicate directly to the public 
during incidents. Information provided through DHS social media 
channels is often shared broadly by Federal, State, and local 
government and law enforcement agencies, as well as ordinary citizens, 
further amplifying DHS outreach efforts.
    The Office of Public Affairs also plays an active role in 
communicating with the Department's employees. Our Internal 
Communications team coordinates, integrates, and synchronizes employee 
communications efforts, ensuring key policy, procedural, and 
operational information from DHS headquarters is disseminated to all 
240,000 of the Department's employees.
    The Office of Public Affairs works closely with DHS component 
agencies and program offices to organize in-person or video 
teleconference employee town hall meetings, facilitates employee 
engagement with DHS leadership, and leads the Department-wide Internal 
Communications Committee to promote a shared internal communication 
vision and develop products that can serve as tools for all internal 
communicators. The Office of Public Affairs also actively supports and 
updates the DHS intranet--DHS Connect--an internal web-based portal 
that provides a range of information and resources to DHS employees and 
enables them to access their respective component intranets.
                         key outreach programs
``If You See Something, Say Something<SUP>TM</SUP>'' Campaign
    Homeland security begins with hometown security. An informed, alert 
public is vital to our efforts to protect our communities, and DHS has 
continued our Nation-wide expansion of the ``If You See Something, Say 
Something<SUP>TM</SUP>'' public awareness campaign, which encourages 
the American public to contact local law enforcement if they see 
something that is a potentially suspicious behavior or activity, such 
as an unattended backpack. The campaign was originally used by New 
York's Metropolitan Transportation Authority, which licensed the use of 
the slogan to DHS for terrorism and terrorism-related crime awareness 
efforts. ``If You See Something, Say Something<SUP>TM</SUP>'' is a 
Department-wide initiative that is managed by the Office of Public 
Affairs.
    To date, DHS has expanded the campaign to States, cities, 9,000 
Federal buildings across the United States, transportation systems, 
universities and institutes of higher education, professional and 
amateur sports leagues and teams, entertainment venues, some of the 
Nation's largest retailers, as well as local law enforcement. Most 
recently, DHS has partnered with sports leagues such as the National 
Football League, Major League Soccer, Major League Baseball, the 
National Basketball Association, National Collegiate Athletic 
Association, National Hockey League, NASCAR, U.S. Golf, and the U.S. 
Tennis Association, to promote public awareness of potential indicators 
of terrorism and terrorism-related crime at sporting events. To this 
end, the ``If You See Something, Say Something<SUP>TM</SUP>'' campaign 
is now a regular fixture at the Super Bowl, NBA All-Star game, and 
other major sporting events.
    Public Service Announcements (PSAs), including a Spanish language 
version, also have been distributed to television and radio stations 
across the country to promote the campaign's messages. We will continue 
to expand the campaign in the coming months and years to additional 
partners.
Ready.Gov and National Preparedness Month
    Launched in February 2003, Ready is a National public service 
advertising campaign designed to educate and empower Americans to 
prepare for and respond to emergencies including natural and man-made 
disasters. The goal of the campaign is to get the public involved and 
ultimately to increase the level of basic preparedness across our 
Nation.
    Ready and its Spanish language version, Listo, ask individuals, 
businesses, families, and children to do three key things: (1) Build an 
emergency supply kit, (2) make a family emergency plan, and (3) be 
informed about the different types of emergencies that could occur and 
their appropriate responses.
    The campaign's messages have been distributed through television, 
radio, print, outdoor, and web (PSAs) developed and produced by The 
Advertising Council; brochures; the www.Ready.gov and www.Listo.gov 
websites; toll-free phone lines 1-800-BE-Ready and 1-888-SE-Listo; and 
partnerships with a wide variety of public and private-sector 
organizations.
    In addition to the Ready campaign, DHS also highlights emergency 
preparedness through National Preparedness Month (NPM), held each 
September to encourage Americans to take simple steps to prepare for 
emergencies in their homes, businesses, and schools. In 2011, FEMA had 
a record number of nearly 9,000 NPM coalition members. By hosting 
events, promoting volunteer programs, and sharing emergency 
preparedness information, coalition members help ensure that their 
communities are prepared for emergencies.
Stop.Think.Connect
    The ``Stop.Think.Connect.<SUP>TM</SUP>'' campaign is a National 
public awareness initiative designed to increase public understanding 
of cyber threats and how individual citizens can develop safer cyber 
habits that will protect themselves on-line and thus help make networks 
more secure. The campaign fulfills a key element of President Obama's 
2009 Cyberspace Policy Review, which tasked DHS with developing a 
public awareness campaign to inform Americans about ways to use 
technology safely.
    ``Stop.Think.Connect.<SUP>TM</SUP>'' includes cyber forums hosted 
in collaboration with the National Centers of Academic Excellence to 
bring together diverse groups of community, private, and Government 
participants for dialogues on cybersecurity issues; opportunities for 
members of the public to get involved by leading or hosting campaign 
activities; and a coalition for public and private-sector 
organizations. As part of the campaign, DHS launched and maintains a 
``Stop.Think.Connect.<SUP>TM</SUP>'' website that provides a variety of 
free, downloadable resources and materials to help the public increase 
their safety and security on-line.
    Each October, DHS also actively supports National Cybersecurity 
Awareness Month, a coordinated effort between the Department, the 
Multi-State Information Sharing and Analysis Center, and the National 
Cyber Security Alliance to raise awareness about the importance of 
cybersecurity and help Americans establish smart cyber habits that will 
lead to increased protection on-line.
                      dhs incident communications
    The Office of Public Affairs has significant responsibilities in 
the event of a major domestic incident or crisis. The Secretary of 
Homeland Security is responsible for keeping the public informed during 
incidents requiring a coordinated Federal response. DHS coordinates 
Federal incident communications efforts, as stipulated in HSPD 5, with 
the Department of Justice, Federal Bureau of Investigation (FBI), and 
other interagency partners, and supports the directly affected 
State(s), depending on the type of incident.
    The DHS strategy synchronizes processes and information between a 
wide range of entities in order to inform the public and provide 
updates on the situation or on-going threats, and, when applicable, 
response and recovery activities. In response to a terrorist threat or 
incident, DHS also coordinates public messaging with the Department of 
Justice, FBI, and other departments and agencies to ensure the accuracy 
of information and that the messaging appropriately safeguards on-going 
law enforcement activity.
    Building on lessons learned from the 9/11 attacks and subsequent 
major National incidents, the Federal Government and DHS developed 
incident communications procedures within the National Response Plan 
(NRP) and its successor, the National Response Framework (NRF), to 
coordinate jointly and communicate with the American public.
    This interagency communications effort involves synchronization of 
two key elements: Process and information coordination.
    During an incident requiring a coordinated Federal response, our 
communications priorities are:
  <bullet> Lifesaving and life-sustaining communications, in 
        coordination with the State and local authorities;
  <bullet> Timely and frequent information updates and public 
        recommendations from the Secretary, Cabinet members, and 
        security officials;
  <bullet> Employment of risk communications and transparency to gain 
        and maintain public confidence and trust; and
  <bullet> Where necessary or appropriate, engagement and integration 
        of non-Governmental organizations, faith-based communities, 
        private-sector, media, other communications platforms to 
        support public communications and allay concerns or potential 
        bias against ethnic minorities in the United States.
        federal incident communications processes and messaging
    Pre-arranged interagency processes, pre-scripted messaging, and 
Federal standard operating procedures help support public 
communications response effort.
    In 2008, DHS developed the first Domestic Communications Strategy, 
or DCS, to provide senior Federal communicators with public 
communications options for use during a domestic attack, serious 
threat, or other major incident. DHS also created Emergency Support 
Function 15 (ESF-15) for coordination of Federal external affairs 
within the overall NRF. ESF-15 brings unity of effort for Federal 
communicators during an incident requiring a coordinated Federal 
response. Once activated, ESF-15 provides the oversight and 
coordination for all Federal external affairs activities supporting an 
incident response in the field.
    As part of this effort, DHS has developed pre-arranged 
communications protocols for information sharing and coordination with 
our key communications stakeholders and counterparts. These protocols 
are networks that form the backbone of our coordination efforts, and 
have been instrumental in achieving unity of effort during major 
domestic incidents and events. They provide the simplified means to 
coordinate with the right communicators at the right time.
    We have three primary counterpart networks that include 
approximately 1,300 key communicators across the Nation. The networks 
are:
  <bullet> The National Incident Communications Conference Line, or 
        NICCL, which is used to coordinate communications with, the 
        Federal Executive Branch interagency, the Capitol Police and 
        Supreme Court, and directly affected State and local 
        communicators;
  <bullet> The State Incident Communications Conference Line, or SICCL, 
        which is used to share information with State and local 
        communications counterparts; and
  <bullet> The Private Sector Communications Conference Line, or PICCL, 
        which is used to share information with communicators for 
        critical infrastructure or key resources.
    These networks can be activated within minutes, subject to 
notification about an incident and determining there is a need for a 
call. They are also used to develop and distribute updated public 
information during an incident. The calls also help to coordinate or 
de-conflict activities by determining the following:
  <bullet> Basic information on the incident and situation;
  <bullet> Lead communications roles and authority, e.g., Federal or 
        State and local;
  <bullet> Communications plans and coordination actions in the hours 
        and days following the incident; and
  <bullet> Communications and public information activities.
    Since 2003, DHS has conducted nearly 450 NICCL calls with our 
Federal, State, local, Tribal, and territorial partners to coordinate 
communications outreach in response to National incidents or events. 
The first use of the NICCL occurred in February 2003--1 month before 
DHS became fully operational--in response to the Space Shuttle Columbia 
disaster. This marked the first use of an incident communications 
conference line strategy by the Department. Since that time, the NICCL 
has been activated for a range of incidents, including the 2006 
aviation security threat involving liquid explosives, the 2009 H1N1 flu 
pandemic, the ``miracle on the Hudson'' aviation water landing, the 
Christmas day bomb plot on Northwest Flight No. 253, the BP Deepwater 
Horizon Oil Spill, the 2010 Times Square plot, other security 
incidents, and a host of floods, tornadoes, wildfires, hurricanes, and 
other natural disasters.
    In addition to these communications networks, DHS has developed 
supporting capabilities and planning resources for use during major 
incidents. For example, in major incidents or when required by the 
volume of communications, DHS can activate the National Joint 
Information Center or NJIC, a capability located within DHS 
headquarters that includes participants physically present as well as 
those connected through virtual means, such as conference lines. The 
NJIC is a flexible resource that can incorporate any communicator to 
support an incident, 24 hours a day, 7 days a week.
    Through experience, we also know that communications activities in 
the first hours and follow-on phases of an attack or incident cannot be 
focused solely on the affected locations or attack sites. In security 
incidents or threats, we often say that ``every incident can affect 
every State.'' Therefore, authorities in other States and cities may 
need to take precautionary measures in another location. In such cases, 
the SICCL network and its ability to convey updates has proven 
extremely useful to our communications counterparts.
    In addition, we fully recognize the significant effects of social 
media during a major incident. Twitter and other social media have the 
ability to widely communicate eyewitness accounts, accurate 
information, and rumors or misleading data. This will continue to 
present challenges and opportunities for communicators at all levels of 
government.
                       the boston marathon attack
    The attack in Boston on April 15, 2013 fully engaged the 
communications processes and capabilities DHS has put in place over the 
past 10 years. Within minutes of notification of the attack, the Office 
of Public Affairs began mobilizing its resources and our Federal 
incident communications processes.
    DHS activated the NJIC within minutes, convened a NICCL call 
shortly after 3 p.m., and employed the DCS as our resource guide for 
communications options, including the sharing of key public information 
and updates.
    The U.S. Attorney's Office in Boston, FBI Boston Field Office, 
Massachusetts State Police, Boston Police Department, and the Suffolk 
County Sheriff's Office served as the lead on-scene communicators and 
participated in NICCL calls. These calls, which included the Federal 
interagency, provided participants with a coordinated communications 
path in the immediate aftermath of the attack.
    From April 15 to 19, the Office of Public Affairs:
  <bullet> Conducted 3 NICCL calls with key Federal, State, and local 
        communicators;
  <bullet> Distributed 19 communications and coordination advisories or 
        updates to NICCL, SICCL, and PICCL counterparts; and
  <bullet> Conducted or supported approximately 80 percent of the 
        options suggested in the Domestic Communications Strategy that 
        applied to this particular situation.
                               conclusion
    Chairman Duncan and Members of the subcommittee, thank you for the 
opportunity to discuss the Department's public affairs activities. The 
DHS Office of Public Affairs is fully committed to communicating 
information to our many partners in a way that is timely, accurate, 
transparent, and helps maintain confidence in the Department's work. I 
would be happy to answer your questions.

    Mr. Duncan. Thank you, Mr. Jensen.
    The Chairman will now recognize Ms. Kessler.
    Am I pronouncing that right? ``Kessler''?
    Ms. Kessler. Absolutely. ``Kessler.''
    Mr. Duncan. Thank you.

 STATEMENT OF TAMARA KESSLER, ACTING OFFICER FOR CIVIL RIGHTS 
   AND CIVIL LIBERTIES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Kessler. Thank you.
    Chairman Duncan, Ranking Member Barber, and distinguished 
Members of the panel, I wanted to thank you for the opportunity 
to appear today as the acting officer for civil rights and 
civil liberties, which we call CRCL, within the Department of 
Homeland Security. At your request, my testimony will be about 
DHS's engagement with diverse ethnic and religious communities.
    Congress established the Office for Civil Rights and Civil 
Liberties to assist the Secretary and the Department in 
periodically reviewing and developing policies and procedures 
to ensure the protection of civil rights and civil liberties 
and to make sure that they are appropriately incorporated into 
Department activities and programs. We also review and assess 
information concerning the abuses of civil rights, civil 
liberties, and profiling on the basis of race, ethnicity, or 
religion by employees and officials of the Department.
    Both of these functions are improved by, and even depend 
on, our communication and engagement with diverse communities. 
Engaging communities, soliciting their views, explaining our 
policies, and seeking to address any complaints or grievances 
they may have is a basic part of good and responsible 
Government and is vital to the Department's mission.
    Our community engagement efforts build crucial channels of 
communication, educating us about the concerns of communities 
affected by DHS activities and giving those communities 
reliable information about policies and procedures. The 
Department builds trust by facilitating resolution of 
legitimate grievances, while reinforcing a sense of shared 
American identity and community and demonstrating collective 
ownership of the homeland security project.
    I thank you for the opportunity to share our work in this 
area.
    CRCL devotes substantial effort to engage with diverse 
ethnic and religious communities, including American Arab, 
Muslim, Sikh, Southeast Asian, Latino, Jewish, and South Asian 
and many other interfaith communities, to help ensure that all 
these communities are active participants in the homeland 
security effort. We do so through community leader roundtables, 
youth roundtables, specific subject community town halls, and a 
rapid response communication network.
    Over the past 8 years, CRCL has established regular 
community engagement roundtable meetings for community and 
Government leaders in 13 metropolitan cities: Houston; Chicago; 
Boston; Los Angeles; Minneapolis; Columbus, Ohio; Seattle; 
Atlanta; Tampa; Denver; New York; and Washington, DC. In 
addition, CRCL has developed relationships with Somali-American 
leaders in San Diego and Lewiston, Maine, and includes them in 
the regular roundtables where possible and in bimonthly 
community conference calls.
    In addition to DHS components, Government participation 
also includes the U.S. Attorneys offices, the FBI, State and 
local law enforcement, and other Federal and local officials.
    Government contact with diverse community leaders in the 
hours and days after a terrorist incident can be 
extraordinarily helpful because community leaders can calm 
tensions, share information with their communities, and perhaps 
assist law enforcement. Accordingly, my office has established 
the Incident Community Coordination Team, or ICCT. This 
conference-call mechanism connects Federal officials with key 
leaders in the event of a situation in which that contact would 
be productive.
    During the most recent ICCT calls for the Boston bombings, 
approximately 180 community stakeholders representing various 
organizations, faith-based groups, and community affinities, 
participated. Most community participants were from the Boston 
area, but many joined the call from elsewhere in the country to 
hear timely information from the U.S. Government and to provide 
information back from their communities.
    In addition, CRCL conducts training for law enforcement 
personnel on cultural competency relating to diverse 
ethnicities, cultures, and religious practices. This kind of 
training is a precondition for honest communication and trust 
between officers and the communities they serve and protect.
    Topics usually include misconceptions and stereotypes of 
Arab and Muslim cultures, diversity within Arab and Muslim 
communities, effective policing without using ethnic or racial 
profiling, and best-practices approach to community outreach 
and intervention. Much of this training is provided live, 
usually on site, to Federal, State, and local law enforcement 
officials around the country.
    In conclusion, frequent, responsive, and thoughtful 
engagement with the first communities is imperative to 
effective Government. Such engagement gathers and shares 
information, builds trust, informs policy, and enables prompt 
response to legitimate grievances and needs.
    Thank you again for the opportunity to testify today, and I 
welcome your questions.
    [The prepared statement of Ms. Kessler follows:]
                  Prepared Statement of Tamara Kessler
                             June 14, 2013
                              introduction
    Chairman Duncan, Ranking Member Barber, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today as the acting officer for civil rights and civil liberties (CRCL) 
for the United States Department of Homeland Security (DHS). At your 
request, my testimony will be about DHS's engagement with diverse 
ethnic and religious communities.
    Congress established the Office for Civil Rights and Civil 
Liberties, to, among other things, ``assist the Secretary, 
directorates, and offices of the Department to develop, implement, and 
periodically review Department policies and procedures to ensure that 
the protection of civil rights and civil liberties is appropriately 
incorporated into Department programs and activities,'' and to ``review 
and assess information concerning abuses of civil rights, civil 
liberties, and profiling on the basis of race, ethnicity, or religion, 
by employees and officials of the Department.'' 6 U.S.C.  345(a). Both 
of these functions are improved by--even depend upon--our engagement 
with diverse communities.
    Engaging communities--soliciting their views, explaining our 
policies, and seeking to address any complaints or grievances they may 
have--is a basic part of good and responsible Government and is vital 
to the Department's mission.
    Our community engagement efforts build crucial channels of 
communication, educating us about the concerns of communities affected 
by DHS activities and giving those communities reliable information 
about policies and procedures. The Department builds trust by 
facilitating resolution of legitimate grievances, while reinforcing a 
sense of shared American identity and community, and demonstrating the 
collective ownership of the homeland security project. I thank you for 
the opportunity to share with you our work in this area.
          the dhs office for civil rights and civil liberties
    The DHS Office for Civil Rights and Civil Liberties (CRCL) carries 
out four key functions to integrate civil rights and civil liberties 
into Department activities:
  <bullet> Advising Department leadership, personnel, and partners 
        about civil rights and civil liberties issues, ensuring respect 
        for civil rights and civil liberties in policy decisions and 
        implementation of those decisions.
  <bullet> Communicating with individuals and communities whose civil 
        rights and civil liberties may be affected by Department 
        activities, informing them about policies and avenues of 
        redress, and promoting appropriate attention within the 
        Department to their experiences and concerns.
  <bullet> Investigating and resolving civil rights and civil liberties 
        complaints filed by the public.
  <bullet> Leading the Department's equal employment opportunity 
        programs and promoting personnel diversity and merit system 
        principles.
                          community engagement
    CRCL devotes substantial effort to engage with diverse ethnic and 
religious communities including American Arab, Muslim, Sikh, Southeast 
Asian, Latino, Jewish, South Asian, and other including interfaith 
communities helping to ensure that all communities in this country are 
active participants in the homeland security effort. Many other DHS 
offices also conduct outreach to these communities. For example, U.S. 
Citizenship and Immigration Services (USCIS), has held Naturalization 
Information Sessions in these communities, and has published its guide 
``Welcome to the United States'' in 14 languages, officials from the 
Office of Policy and the Office of Intergovernmental Affairs have met 
repeatedly with members of these communities as well. However, CRCL is 
the Office within DHS that conducts the most extensive regular 
community engagement effort involving the many diverse communities 
across the Nation through several types of regular events or programs: 
Community leader roundtables; youth roundtables; subject-specific 
community town halls; and a rapid response communication network. CRCL 
has developed sophisticated mechanisms for engagement including many 
best practices to ensure productive communication and dialogue both 
with the community and within the Federal Government.
    Roundtables.--Over the past 8 years, CRCL has established or 
managed regular community engagement roundtable meetings for community 
and Government leaders in 13 metropolitan areas across the country: 
Houston, Chicago, Boston, Los Angeles, Minneapolis, Columbus (Ohio), 
Seattle, Atlanta, Central Florida (Tampa), Denver, New York City, and 
Washington, DC. In addition, CRCL has developed relationships with 
Somali American leaders in San Diego, and Lewiston (Maine), and 
includes them in the regular roundtables where possible and in bi-
monthly community conference calls.
    These roundtable events include DHS components relevant to the 
issues placed on the agenda by our community partners, most often U.S. 
Citizenship and Immigration Services (USCIS), U.S. Immigration and 
Customs Enforcement (ICE), U.S. Customs and Border Protection (CBP), 
and the Transportation Security Administration (TSA). Government 
participation also includes U.S. Attorneys' Offices, the Federal Bureau 
of Investigation (FBI), State and local law enforcement, and other 
Federal and local officials.
    The roundtables cover a range of homeland security, civil rights, 
and other areas including rules governing remittances to foreign 
relatives; immigration and naturalization policies; access to 
information about basic Government services in different languages; 
roles and responsibilities of law enforcement; detention of National 
security suspects; how Government can work with communities to promote 
civic engagement; services for newly-arrived refugees; crime 
prevention; how communities can work with Government to counter violent 
extremism; protection of civil rights in employment, voting, housing, 
and other areas; prosecution of hate crimes; and border searches among 
others.
    The meetings provide opportunities for community leaders to set the 
agenda, learn about significant Government policies, as well as to 
raise specific issues of concern in a format that emphasizes 
accountability for answers--the Government participants will be back 
again the following quarter or communicate in the interim. For our 
engagement efforts to be sustainable, it is important that the 
grievances of these communities be heard by policy decision makers, so 
we collect inquiries and issues from the communities and encourage 
participation of senior Department leadership, and CRCL keeps them 
apprised of the impact of DHS policy and operations.
    An example is our engagement efforts related to DHS immigration and 
border security policies. We hold quarterly meetings with a broad-based 
non-governmental organization (NGO) coalition of National civil rights 
and immigrant-rights organizations; have established an inter-agency 
Immigrant Worker Roundtable to bring together DHS components, other 
Federal agencies, and NGOs; and facilitate an immigration Incident 
Coordination Call, which provides immigrant community leaders with 
vital information about CBP and ICE enforcement posture during 
emergencies. In the past it has been used only to prevent loss of life 
by encouraging immigrant communities to evacuate dangerous areas during 
hurricanes by alleviating undue fear of enforcement.
    We also participate in engagement activities of other DHS 
components; over the past several months, for example, my staff served 
as the designated facilitators for subject-specific stakeholder 
meetings about CBP's Language Assistance Policies with local law 
enforcement agencies in the Pacific Northwest and spearheaded Limited 
English Proficiency (LEP) and Community Engagement training for local 
law enforcement and diverse communities.
    Youth roundtables.--CRCL has hosted four ``Roundtables on Security 
and Liberty'' in Washington, DC; Houston; and Los Angeles to connect 
with 150 young leaders ages 18-25 from American Arab, Muslim, Sikh, and 
South Asian communities. These events offer opportunities for youth to 
share their thoughts with senior DHS leadership and for Government 
officials to learn from a population whose perspectives are invaluable 
to homeland security efforts. Additionally, CRCL has hosted three 
similar youth town halls with Somali youth groups in Minneapolis and 
Columbus; events attended by the U.S. Attorneys and coordinated with 
other Federal, State, and local law enforcement and other officials.
    Incident Community Coordination Team.--Government contact with 
diverse community leaders in the hours and days after an incident can 
be extraordinarily helpful, because community leaders can calm 
tensions, share information with their communities, and perhaps assist 
law enforcement. Accordingly, my office has established the Incident 
Community Coordination Team (ICCT). This conference call mechanism 
connects Federal officials with key leaders in the event of a situation 
in which contact would be productive. DHS participant components and 
offices include TSA, ICE, CBP, USCIS, the Office of Public Affairs, and 
the Office of Intelligence & Analysis. We are also joined when relevant 
by the White House Office of Public Engagement, the DOJ Civil Rights 
Division, the FBI, the National Counterterrorism Center (NCTC), and the 
Department of State, among others. Community participants include 
representatives of National organizations, community leaders from key 
cities, and religious and cultural scholars.
    Our ICCT has been used 11 times since we established it in 2006, 
and has been an effective device in several ways:
  <bullet> It allows participating agencies to get community leaders 
        the information they need in the aftermath of an incident. The 
        information shared--which is not classified or restricted--is 
        valuable because of its reliability and timeliness.
  <bullet> It gives community leaders a channel to speak to Federal 
        officials in a timely and effective way. They can share 
        reactions to Governmental policies or enforcement actions, and 
        provide information about hate crimes that should be 
        investigated, about the mood of communities in the aftermath of 
        a homeland security incident and, possibly, about how the 
        Government might improve its effectiveness in investigating the 
        incident.
  <bullet> It facilitates development of a common understanding about 
        the messages that Government and community leaders will send to 
        these communities, the country, and the world.
    The ICCT has convened following: The London arrests in August 2006, 
the Ft. Dix and JFK arrests in June 2007, the London and Glasgow terror 
attacks in late June 2007, the release of the National Intelligence 
Estimate in July 2007, the Fort Hood shootings in November 2009, and 
the December 25, 2009 Northwest Airlines bombing attempt. In 2011, the 
ICCT was activated to address the death of Osama bin Laden and the 
tenth anniversary of the September 11 attacks. In 2012, it was 
activated in the aftermath of the attack on the Sikh Gurdwara (Temple) 
in Oak Creek, Wisconsin. In 2013, it was activated twice in 1 week 
following the Boston Marathon terrorist attacks.
    During the most recent ICCT calls for the Boston bombings, 
approximately 180 community stakeholders representing various 
organizations, faith-based groups and community affinities 
participated. Most community participants were from the Boston area, 
but many joined the call from elsewhere in the country to hear timely 
information from the U.S. Government and to provide information back 
from their communities.
    The U.S. Attorney from Boston, Carmen Ortiz, and officials from 
DHS, including from CBP, TSA, ICE HSI, ICE ERO, joined the call. Other 
officials from the FBI, the National Counterterrorism Center, and 
elsewhere in the administration also joined the call.
    All Government partners updated community participants on the 
nature of the on-going investigation and also provided resources such 
as community hotline information and points of contact in case 
community members wished to report instances of retaliation or backlash 
violence in the wake of the Boston attack.
    Community stakeholders engaged in a robust Q&A session asking 
questions about DHS' various alert mechanisms and offered feedback on 
how Government and law enforcement agencies could better manage public 
messaging as events continue to unfold. Terminology and messaging was 
also a focus of the discussion.
    CRCL has since received specific follow-ups on this issue from 
community stakeholders in a number of cities Nation-wide and will have 
this topic on the agenda at all upcoming community engagement 
roundtables and other follow-up meetings.
                     facilitating local engagement
    There are millions of American Arab, Muslim, Sikh, Southeast Asian, 
Latino, Jewish, South Asian, and other including interfaith 
communities, living in thousands of towns and cities across the Nation. 
By necessity, Governmental engagement with these and other diverse 
communities has to be local.
    CRCL conducts training for law enforcement personnel on cultural 
competency relating to diverse ethnicities, cultures, and religious 
practices. This kind of training is a precondition for honest 
communication and trust between officers and the communities they serve 
and protect. Topics include: Misconceptions and stereotypes of Arab and 
Muslim cultures; diversity within Arab and Muslim communities; 
effective policing without the use of ethnic or racial profiling; and a 
best-practices approach to community interaction and outreach. Much of 
this training is provided live, usually on-site, to Federal, State, and 
local law enforcement officials around the country.
    It is worth noting, in addition, that it is our community 
partners--reliably informed by engagement activities about Government 
policy and practices, and consistently empowered by those same 
engagement activities to highlight for policymakers their experiences, 
concerns, and grievances and to obtain reasonable responses--who bear 
the responsibility to counter violent extremist ideologies that subvert 
their values and may pave a path for young people towards violence. 
Extremist beliefs, after all, are protected by the Constitution. Our 
proper sphere of concern and intervention is violence, not extremism.
                       civil liberties engagement
    As particular topics warrant civil liberties considerations, CRCL 
reaches out to obtain the views of leading civil liberties advocates. 
In particular, when a new DHS program, activity, or policy change leads 
to concerns from the public on civil liberties, CRCL makes an effort to 
engage with its civil liberties partners for feedback. For example, 
CRCL has discussed its training for fusion center personnel and its 
recently-published civil liberties impact assessment on the DHS support 
to fusion centers with civil liberties organizations. We participated 
in a forum on fusion centers hosted by the Constitution Project and 
invited the ACLU and the Constitution Project to address all fusion 
center privacy officers at a DHS-led conference. CRCL and the DHS 
Privacy Office have recently begun bi-weekly Cybersecurity Engagement 
Meetings to discuss the new Cybersecurity Executive Order. On other 
topics, ranging from Unmanned Aerial Systems to border searches of 
electronic devices, CRCL has maintained an open-door policy for 
discussing the concerns of civil liberties specialists.
                               conclusion
    DHS envisions a homeland that is safe, secure, and resilient 
against terrorism and other hazards, and where American interests, 
aspirations, and way of life can thrive. The American way of life 
prominently includes our cherished civil rights and civil liberties. 
Even so, our Department--and the Federal Government as a whole--cannot 
possibly do all that needs to be done in this area of endeavor. States 
and local governments are beginning to become active in this area, and 
some are doing terrific work. We must promote more local efforts, by 
modeling constructive engagement; providing in-person and scalable 
training and training materials; coordinating community-oriented 
activities; and promulgating community engagement best practices. We 
need to ensure that our State, local, and Tribal partners have the 
knowledge, methods, skills, and resources to productively engage their 
communities.
    Frequent, responsive, and thoughtful engagement with diverse 
communities is an imperative of effective Government. Such engagement 
gathers and shares information, builds trust, informs policy, and 
enables prompt response to legitimate grievances and needs.
    Thank you, again, for the opportunity to testify today. I welcome 
your questions.

    Mr. Duncan. Thank you.
    The Chairman will now recognize himself for 5 minutes for 
questioning.
    The delay to get the truth out really feeds the fire of 
distrust, so I am going to focus on that for just a minute.
    DHS's ammunition and MRAP purchases and incidents of TSA's 
security officers at screening checkpoints--it seems the 
Department would simply not answer questions from certain 
groups of people. So how does DHS decide which issues to engage 
in? Why can't the DHS be more proactive in responding to 
questions from the public?
    Mr. Jensen. Thank you for that question, Chairman Duncan.
    I think you are absolutely right, in the sense that there 
is the requirement to respond to important issues. Specifically 
on the ammo issue, we could have done a better job.
    That said, when asked about responding, we make it a 
point--and with that ammo issue, we responded to every single 
media and blog inquiry that came to us. I know that they took a 
little bit of time to get the accurate information, to make 
sure what we put out was factually correct, but we did respond 
to every media inquiry.
    I also understand that my colleagues in Legislative Affairs 
provided every Congressional office that asked them for 
information on it with that information. I noticed that on 
Senator Coburn's website that he actually posted the response 
on there, which I think is a very good thing for us and also 
very helpful to all of you, because you need to show your 
constituency what the information is from DHS.
    Can we do better? Yes. We are always looking at ways to 
improve our processes. We want to take things that I call 
``lessons identified'' and make them lessons learned. That is 
something that, for example, I was brought into the Department 
to try and do, to put a little bit of infrastructure into how 
we do things and to do a better job of making our processes and 
procedures across the Department more consistent.
    Mr. Duncan. Just going back to the ammo thing for just a 
second, when the story first broke that there was this huge 
procurement contract, there was at least a 3-month delay, from 
my recollection and doing a little research, on that.
    So when we went out to FLETC recently, we had this 
conversation with DHS officials about this ammo purchase. I 
asked at that time about the contract, and I was told it was a 
70-million-round contract over a 5-year period of time. But in 
my questioning of that, I also found out that, well, FLETC 
isn't the only procurement agency, that ICE actually has a 
procurement contract as well.
    So I requested at that time for a copy of the request for 
proposal to the ammo companies to provide the ammo and a copy 
of the 5-year contract from every procurement agency or sub-
agency that has the ability to procure ammo. I also wanted to 
see the last 5-year contract so I could compare and see if it 
is out of whack from what we had done in the past. Because I 
think the American people need to know the facts and they can 
deal with the facts. Let's just be honest with them. I think we 
have a responsibility there.
    That was on May 23. Are the copiers broken at DHS? Because 
we haven't received that yet. That is almost a month, coming 
up. So I throw that out there.
    Then I want to just shift gears, because earlier this year 
the media reported about an aggressive TSA pat-down of a young 
child who was wheelchair-bound and heading to Disney World with 
her family. Now, this video incident was heartbreaking. It 
quickly went viral across the internet. TSA later apologized 
but blamed ineffective guidance for the incident.
    What would DHS do differently if this was to occur again 
in, specifically, communicating with the American people? Why 
does it seem so difficult for the Department to relate to the 
traveling public's frustration and concerns on a human level?
    I go back to my opening statement. We still prescribe to 
the innocent-until-proven-guilty concept, but Americans don't 
feel that way. When they go through TSA, they feel like they 
are guilty of something, they feel like they are being accused 
of something when they have to go through an invasive TSA 
screening.
    So when we see instances like this child being, you know, 
aggressively patted down, and all she wanted to do was go to 
Disney World, it is heart-wrenching, but we can relate to that 
because we may have seen that personally or we may have gone 
through something like that.
    So I go back to the question: What would you do differently 
if this were to occur again? How can you relate differently to 
the American people about TSA screening?
    Mr. Jensen. Well, sir, I think that we want to make sure 
that folks know that TSA's No. 1 concern is safety of the 
traveling public and that our security procedures are 
constantly evolving as our adversaries are trying to get around 
the security, you know, systems that we have in place.
    One of the things I know that they are trying to do is they 
are trying to evolve that security system so they have a 
balance between the security--we have a multilayered security 
system--and making the experience better for the traveling 
public. We totally understand that it is not always a nice 
experience.
    If that happened again, obviously we need to ask more than 
just what we are going to say about it. What was the cause for 
our TSA officers not to have the correct training? That is not 
necessarily a public affairs issue; it is a training issue. But 
it definitely was the right thing to do to apologize publicly. 
I think we would always make sure that we let the public know 
when we are not doing something right, because there is no 
reason to try and make an excuse for something that is 
inexcusable.
    I do want to say again that, overall, TSA has millions of 
travelers every day going through without incident, and there 
will be, unfortunately, incidents at times, which doesn't 
excuse it, but we need to make sure we are clear with the 
public on what we are doing and why we are doing it.
    I think something that usually comes up is: What can I or 
can I not, you know, bring onto a plane? That is another issue 
that comes up. I think we have done a pretty good job of having 
an app, a TSA app, that I think has gotten pretty good reviews 
that tells people what they can and can't bring. It is also on 
our website, as well.
    So, again, we are just trying to look at moving away from a 
one-size-fits-all approach, which is what we started off with, 
and we are trying to evolve it to where we balance out the 
risks and focus more on those families we know less about. 
Those that we do, we need to, for example, change the rules in 
making sure little kids don't have to take off shoes. Just, how 
do we evolve that so it is a better experience for the public.
    Mr. Duncan. Well, I appreciate that. Being proactive in a 
communication realm is much better than being reactive. I want 
to encourage you to do that.
    I go back to the social media aspect. It is a great way to 
communicate proactively. In a time of emergency, it is a 
different ball game. I understand you are tweeting now and are 
putting out things to allow folks to understand where to go, 
how to react, where they can get help. But on an on-going 
basis.
    Ms. Kessler, going back to the TSA screening, because of 
the civil liberties issue there, how would you respond to that 
incident of the wheelchair-bound child heading to Disney World 
and her civil liberties and what DHS or TSA did?
    Ms. Kessler. Well, we get complaints like that frequently, 
and the normal response is to check whether the policy needs to 
be redone and the SOP needs to be redone in terms of how 
procedures are put in place for searching of people in 
wheelchairs. I, myself, have a daughter in a wheelchair, and I 
travel frequently and try and educate the TSA agents as I go 
through, and generally have a very good experience.
    We have put a number of things in place, including there is 
a TSA Cares line, where people with disabilities or any kind of 
special vulnerabilities that will affect their travel can call 
in advance and talk through what will happen and how it will 
work and, if they have any special needs, how they would 
arrange them with the airlines.
    But we do see quite a few of these cases, all different 
kinds of allegations from people with disabilities. Most of 
them result in more training and a review of the policy to make 
sure that it is really going to be helpful for whatever kind of 
person comes through when you are dealing with the general 
public.
    Mr. Duncan. All right. Well, thank you for that.
    I could ask questions about Chewbacca, the Wookiee, and his 
cane and the lightsaber and all that other stuff, but I am 
going to reserve that. I won't go there.
    My time is up, so I will yield to Mr. Barber for 
questioning.
    Mr. Barber. Thank you, Mr. Chairman. I look forward to 
those questions. I am intrigued.
    Mr. Jensen, let me just make a comment and then ask you 
some questions.
    As I said in my opening statements, I strongly believe the 
Federal Government has a major responsibility to effectively 
communicate and be transparent with the public. I understand 
that within the Department of Homeland Security there are some 
issues that have to be kept closer to the chest, in terms of, 
you know, protecting our ability to secure the Nation and the 
safety of its citizens.
    But, having said that, I want to ask you a little bit about 
how it is that the Department's headquarters coordinates at 
component-level offices. Because I think this is where I see 
the breakdown occurring. For example, the ICE detainee 
released. For CBP, for example, I thought the misplaced email, 
which was given to the reporter by someone in the Department 
who obviously didn't like the tone that it was establishing.
    So how does the Department headquarters coordinate with 
component-level offices to ensure continuity of messaging? Who 
has the final say in the components or headquarters on what 
will be disseminated to the public? How does the flow of 
communication work within the Department?
    Mr. Jensen. Thank you for that question, Ranking Member 
Barber.
    There are multiple ways that we coordinate. On a daily 
tactical level, we have calls with all the component media 
offices, in which we are sharing what is going to go out that 
day, what events are happening, and what are the expected press 
releases. On a longer-range basis, we look in terms of 
strategic communications, strategic planning, and we try and 
look out, you know, weeks, months in advance to see what is 
coming up. Many times, we do know what is coming up, because we 
are the ones who are pushing the new policies and, you know, 
are working on the messaging for that.
    In terms of how the components work, okay, most of the 
subject-matter experts in the programs that are being 
operational are at the component level. So they are putting 
together the first talking points, public affairs guidance in 
the plans that are going to go out, and then that floats up to 
the headquarters, where we review it. What we are trying to 
review for is making sure that it is consistent with what our 
headquarters policy is, because the policy is for the entire 
Department, and making sure that the messaging is consistent.
    The final say does come from the headquarters, in terms of 
the Assistant Secretary for Public Affairs, which doesn't mean 
that that is the end. I mean, if there is a disagreement, I 
guarantee you that the administrators of the different 
components will speak up and raise the issue, and there has 
been discussions about how we do things.
    One of the things that I think is important to note is 
that--and I think you kind of bring it up in terms of policies 
and procedures and standard operating procedures, that--again, 
that is one of the reasons I was brought into FEMA, when I 
first came to FEMA, was to put those SOPs in place. I am trying 
to do the same thing at the headquarters, in terms of our 
training of all of our component public affairs offices.
    There does not exist now a DHS-wide training strategy. I am 
putting that together, along with a DHS public affairs 
workforce development plan so that we actually know how many 
public affairs officers we have, what skill levels, you know, 
what do they need to be able to do.
    That training strategy, along with the recruiting, 
retention, and leadership development plan, are going to be 
part of that. Again, that doesn't exist now. We are working on 
that. I have a group that includes senior representatives from 
all the components to come together and have a say and have 
input.
    Another way that we are trying to do things is that--many 
of our issues go across the Department. So, for example, 
cybersecurity, every component has a little piece of that. So, 
many times, a component might be focused on one program, and we 
need to make sure that whatever they are saying fits what the 
entire Department is doing.
    So, to do that, we created a cross-Department steering 
committee that has representatives, both policy and subject-
matter experts as well as communicators, to create a ``One 
DHS'' communication strategy for cybersecurity. That way, all 
of the components have that. They have a starting point, which 
doesn't mean that that is the only thing people can say, but it 
is a starting point, and it is a common messaging across the 
Department.
    We probably need to do a lot more of that. That is one of 
the things that we are seeing as we mature the agency.
    Mr. Barber. I appreciate that. It sounds like very 
important and hopefully successful steps are being taken.
    From what I have seen--and I think most of us would agree 
with this--what was done in FEMA was really an exceptional 
piece of work. Progress was made there, in terms of 
communicating effectively at a time when people really need it 
more than just about other time. So I wish you success with 
bringing the same kind of coordinated and rapid communication 
and messaging to the public.
    Let me--you know, FEMA is a great example of how it works. 
You said, I think, your Department is responsible for the 
protocols agency-wide now?
    Mr. Jensen. Yes, that is correct.
    Mr. Barber. Okay.
    Let me turn to Ms. Kessler.
    First of all, I want to commend you and your office for 
what it is trying to do and what it is doing, actually, to 
engage with minority groups that otherwise might be treated 
poorly, I think, at the local level or sometimes at a National 
level. We don't need to demonize people because of the actions 
of extremists that might be part of that general community, and 
I appreciate what you are doing.
    TSA has a program where 2,800 staff are involved, I 
believe, in airport scanning/screening of people. They kind of 
float around, I am told. They are essentially, it seems to me, 
profiling--I don't know if there is a better word to describe 
it--to pick out people who might be suspicious.
    How does the work of your office intersect or interact or 
coordinate with that? Isn't it somewhat at cross-purposes?
    Ms. Kessler. Well, the program is actually the behavioral 
detection officers, and it is called the SPOT program. My 
office has been very involved in ensuring that the way that the 
officers are trained is appropriate, that the factors--they 
have sort of a point system--that the factors that trigger 
suspicion are appropriate, that they are not based on race or 
ethnicity, that they are based on behaviors, suspicious 
behaviors, and not who you are but how you are acting.
    So we have had quite a bit of oversight on that program, 
including revamping their policies, helping TSA to revamp their 
policies and currently helping them to revamp the training.
    There was an incident in Boston, as you know, that was 
reported in The New York Times about some of the actual 
officers up there complaining. That is under investigation by 
the Inspector General, currently under investigation still.
    But we have been working in the mean time, at the 
Secretary's request, to ensure that the program is very 
carefully structured with a lot of oversight.
    Mr. Barber. Well, I didn't appreciate it until you said it, 
that your office is helping to train those officers. I think 
that is well-taken.
    I just want to say in closing--and we will hopefully have 
second round for the other questions--that I really commend the 
Department for how it has handled communication with the 
public. In natural disaster Sandy, it worked very well; Boston 
bombing, very well. I just want to make sure that we apply 
those approaches and those techniques and that coordination to 
the day-to-day communication with the public.
    We should never have found out about the detainee release 
from the newspapers. We should never have found out, as Members 
of Congress, about the proposed knife policy on airlines from 
the media. I mean, these things have to be improved.
    Personally, I want to see the Department succeed. I very 
much believe in its mission, particularly the Border Security 
and Customs piece of it. Just, you need to work more closely 
with us to make sure that we are armed with the information we 
need to be proactive and effective in supporting the men and 
women who do this difficult job.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank you, Mr. Barber.
    The Chairman will now recognize the Chairman of the 
Transportation Security Subcommittee, the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    I thank the witnesses for being here today.
    I think it has been said, the essence of America's 
greatness is our goodness. I certainly share the Ranking 
Member's concerns and I think what makes us a great country is 
that we respect the rights and dignity and freedom of all 
people. But the concern I hear when I go home a lot is: Are we 
going too far? Are we allowing political correctness to get in 
the way of our ability to keep ourselves safe?
    One example I would cite, just to sort of ask, I guess, Ms. 
Kessler or either one who would like to respond, your take on 
this, but I saw in media reports a 2011 countering violent 
extremist training video that, Ms. Kessler, your office I 
believe put out, that suggested do's and don'ts when organizing 
CVE, cultural awareness for counterterrorism training.
    One of the suggested don'ts was, ``Don't use training that 
equates radical thought, religious expression, freedom to 
protest, or other Constitutionally-protected activity, 
including disliking the U.S. Government, with being violent.'' 
That was a quote.
    Yet media reports have indicated that Tamerlan Tsarnaev, 
one of the suspects in the Boston bombing, made extremist 
outbursts at his mosque that upset the folks there enough that 
they said something about it. But, on the other hand, DHS 
pleads with the public, you know, ``If You See Something, Say 
Something.''
    So I wonder if, you know, on the one hand folks are being 
told, ignore this kind of language, and then on the other hand 
we are telling the public, if you hear this type of thing, let 
us know. You know, are we sending mixed messages? Are we erring 
too far in one direction or the other? I would love to hear 
your thoughts on that.
    Ms. Kessler. I think that is a great question.
    I think the ``See Something, Say Something'' campaign is 
really focused on behaviors as opposed to speech and as opposed 
to appearances. So we have worked hard to make sure that it 
really is aimed at not profiling people and not putting people 
into categories based on who they are.
    It is true that I think it is very important in the context 
of countering violent extremism that there is a differentiation 
between speech and activities. We talk all the time about 
radicalization to violence, rather than just radicalization. 
Because it is part of the American tradition that people are 
allowed to express their thoughts and feelings even if we don't 
agree with them.
    So part of this is not to control thought and it is not to 
tamp down the ability to express that thought, but to watch for 
when it crosses the line, when behavior starts to indicate that 
there might be a bigger problem than just the philosophical 
opinion of that person.
    Mr. Hudson. So in the example I was asking about 
specifically, where you have someone in a mosque whose radical 
speech alarms those in the mosque, who are of the same culture, 
of the same religious background, how do you weigh that sort of 
information?
    Ms. Kessler. For most of our work, we really focus on 
empowering the community to be able to take care of that 
internally so that they recognize the signs and that they know 
that they can come to Government. So, building that community 
of trust by holding our roundtables and doing very targeted 
engagement and very intense engagement with groups in the 
cities that we have chosen.
    We feel that we are giving them a feeling of being 
integrated into the community rather than ostracized, and that 
that feeling of integration, the feeling that they have someone 
to go to and to talk with about these issues, is a really good 
thing, in the sense of them being able to take their own 
internal steps to prevent these kinds of problems.
    Mr. Hudson. All right.
    Well, I have a little over a minute left. I guess I will 
direct a question to Mr. Jensen.
    As was alluded to, you know, we have just gone through this 
process of removing items from the prohibited items list. I 
think we can all agree the process was broken. There are good 
folks on both sides of the issue of whether those items should 
have been removed from the list, whether that was a good move 
for risk-based security. I happen to think there is a way to do 
that safely and it was a smart move.
    But, as my colleague said, I learned about it in the media. 
If we had had--and, obviously, I have talked to the 
administrator about this--and, you know, given us a little more 
time in advance to process these decisions, give feedback, it 
puts us in a position to defend things we agree with much 
better. But I think, also, that part of the larger point is the 
stakeholders not being included in the front end on this 
decision.
    You know, I hope that from your point of view and the 
Department's point of view, that was a mistake that we can 
learn from. I would love to hear from you, Mr. Jensen, sort of 
what lessons were learned from that, the ``knife flip-flop,'' 
it is being called.
    Mr. Jensen. Thank you, sir.
    Yeah, we definitely could have done that a little bit 
better, and I think that has been acknowledged. My 
understanding is that stakeholders were engaged before the 
announcement of the proposal to change the policy. Again, it 
was just looking for a way to evolve the policy, to move away 
from this one-size-fits-all.
    But at the point that this came out, before it was enacted, 
TSA decided to have a pause, and then they re-engaged their 
stakeholders, including the Aviation Security Advisory 
Committee, law enforcement officials, passenger advocates, et 
cetera, and, based on their feedback and concerns, made the 
decision not to change the policy.
    So, again, the point here is that----
    Mr. Hudson. Well, if I could interrupt you, I am way out of 
time--Mr. Chairman, I appreciate the leeway--but I think that 
the statement that stakeholders were involved in the front end 
is not factual. I know you have a different role, and maybe----
    Mr. Jensen. Sure.
    Mr. Hudson [continuing]. This is something you may want to 
look at a little closer, but the stakeholders were not included 
in the front end. Again, I am someone who supported the policy. 
I think it was a smart move from a risk-based standpoint. But 
to say stakeholders were engaged in the front end is just 
simply not true.
    I think, if you will take a look at that, there are some 
lessons that need to be learned. Because, from my point of 
view, we need to move towards more risk-based. I think the 
administrator and the Secretary are exactly right. I want to 
support that. But if we are going to ever be about to remove 
anything from that prohibited items list, we need to do a 
better job on the front end of involving stakeholders and doing 
it the right way so that people understand why we are doing 
what we do.
    So I would just, since I am completely out of time, would 
just ask you to please take that into consideration going 
forward.
    Mr. Jensen. Absolutely. I think you are exactly right, sir.
    Mr. Hudson. Thank you, Mr. Chairman, for your leeway.
    Mr. Duncan. Thank you.
    The Chairman now recognizes the gentleman from south Texas, 
Mr. O'Rourke, for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I guess my question is for Ms. Kessler.
    How do we communicate with people who are crossing into the 
United States? The instance that I am most interested in, 
across our Southern Border from Mexico. In El Paso alone, we 
have 6 million crossings a year. The majority of those crossers 
are primarily speaking Spanish; in many cases, they only speak 
Spanish.
    What are we doing to effectively communicate with this 
population, who are customers of our bridges, who are in many 
ways keeping our economy alive in El Paso and throughout the 
State of Texas and this country?
    Ms. Kessler. Well, a good example of this recently has been 
with the unaccompanied alien children. We have been creating 
videos to be played in Central America, where most of them are 
coming from now. It is much slower on Mexicans and much higher 
on Central Americans. We have the ``dangers of the crossing'' 
video, which has, I think, been effective in people 
understanding how dangerous this can be. For the children, 
doing a real outreach project on them understanding what could 
happen to them on the journey and the fact that they may end up 
in HHS custody if they cross.
    We have also been doing a lot of different videos for the 
children after they are in custody. A lot of them actually come 
across the border and turn themselves in because of the stress 
of the journey. Those kind of videos help them to know what 
will happen to them after they come into custody.
    So I think there is more and more outreach to discuss both 
the dangers of coming and the process once you are in it.
    Mr. O'Rourke. We have heard in previous hearings that, you 
know, somewhere close to 99 percent of those who are crossing 
our ports of entry into the United States are crossing for 
legitimate purposes, have the appropriate documentation, and, 
again, are huge net contributors to our economy and to our 
communities.
    How are we communicating with that population?
    Ms. Kessler. I think the Secretary has been very strong on 
the efficiencies at the border and trying to make sure that 
people really understand that the border is open for business. 
There has been quite a bit of outreach--I think Mr. Jensen can 
speak to you better than I can--on the fact that we want to 
smooth people's transition and that the economy is the border 
is very valuable.
    Mr. O'Rourke. But before Mr. Jensen takes that question, I 
want to follow up on something that the Chairman said, you 
know, that many at airports going through the TSA process feel 
like there is a presumption that they are guilty until proven 
innocent. I will tell you that the people who are using our 
ports of entry coming into our community, the community I 
represent in El Paso, Texas, feel that same way.
    In many cases, they have been waiting--it was 106 degrees 
in El Paso yesterday--they have been waiting hours in the heat, 
on foot, on these bridges to cross in. Many times, when they 
get to the front of that line, they feel as though they are 
harassed and don't often feel like they can pursue that 
harassment or that mistreatment because they have already been 
waiting for hours, they want to get into the community and do 
their business, go to school, you know, reach their 
destination.
    How are we communicating with that population about the 
recourse that they have if they feel like they have been 
treated unfairly, they have had their civil liberties violated? 
What is the plan there?
    Ms. Kessler. Well, currently, we are working on a--I think 
it will end up to be a brochure and possibly a poster that 
would be in the ports of entry called ``Know Your Rights and 
Responsibilities,'' which would really lay out what happens in 
the process, what is appropriate, what is inappropriate, and 
where you can file a complaint.
    Mr. O'Rourke. Then for Mr. Jensen, related to that, the CBP 
officers, the Border Patrol agents have among the toughest jobs 
in public service and some of the most dangerous jobs in public 
service. So I understand how difficult that is, to strike that 
balance between security and mobility and ensuring that we are 
respecting people's Constitutional rights and their civil 
liberties.
    But what are we doing internally to communicate the fact 
that 99-percent-plus of these travelers are traveling for 
legitimate purposes, have legitimate documentation, and that, 
while we should ensure that we are securing the border, that we 
have more of a welcoming posture? These are customers; these 
are, in many cases, U.S. citizens returning back into the 
country.
    What is the internal communication strategy to make sure 
that we do a better job going forward?
    Mr. Jensen. Well, I know that, you know, for any 
organization, the internal workforce is one of our main areas 
that we need to have a better communication effort on. You are 
exactly right, in the sense that they need to understand what 
our posture is and the fact that, you know, our job is to be 
welcoming.
    I know that we are doing a lot right now--in fact, this 
afternoon I am going to be working with our colleagues in 
Canada. I am part of a ``Beyond the Border'' announcement that 
is coming out. We are looking at ways to streamline the trusted 
traveler program.
    I think it really comes down to better training, which is 
not necessarily a public affairs viewpoint; that is a training 
viewpoint. But we certainly, in public affairs, in our internal 
communications, whether it is on our intranet, which is called 
Connect, whether it is through employee messaging, whether it 
is through other means, that we can help support that training 
and help support that mindset among our workforce.
    Mr. O'Rourke. Thank you.
    Mr. Duncan. I thank the gentleman.
    The Chairman will now recognize Mr. Payne from New Jersey 
for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    Let me just say that I know, with our busy schedules here 
in the halls of Congress, I was a little concerned about the 
absence of Members on the other side. I was hoping it wasn't 
because of the baseball game last night and the 22-nothing 
score.
    Mr. Duncan. Congratulations on that. I hope it wasn't 
either, but thank you.
    Mr. Payne. Thank you.
    I want to first say thank you to the Department of Homeland 
Security, in particular FEMA, for its incredible response to 
Hurricane Sandy. By and large, I am very pleased with the 
response in New Jersey during that terrible disaster. 
Nevertheless, you know, I continue to keep my eye on the 
response efforts. There are still really too many families that 
are homeless in New Jersey, along with small businesses that 
have not yet received the help they need to get running again.
    But I do want to recognize DHS for its response efforts. 
They seem to get better and better with each unfortunate event. 
This continued improvement tells me that the Department is 
doing a good job learning from each disaster. So I want to 
thank you, your Department, for the good work.
    Having said that, Mr. Jensen, I would ask that you please 
describe in depth the DHS's communications response and 
strategy during Hurricane Sandy, including traditional 
communication, social media and efforts alike. Also, could you 
please educate me and the subcommittee on what strategies and 
outreach efforts worked and what didn't work?
    Mr. Jensen. Thank you, Congressman, for that question. I 
appreciate the kudos to FEMA.
    I absolutely believe that FEMA has done a really good job 
and has learned a lot of lessons after Katrina, not least of 
which surrounded communication. One of the biggest things that 
we learned out of Katrina is that we needed to combine all of 
the external communication efforts into one. They created the 
external affairs office, of which I was acting director before 
I moved up to headquarters at DHS.
    What this does is this makes sure that, when we are 
communicating with Congress, intergovernmental, with the States 
and local, with the private sector, which we hadn't done very 
well before Katrina, and our communities, interfaith, faith-
based organizations, et cetera, that it was all in one 
organization so there was coordinated, integrated, and 
synchronized messaging and that it was all consistent. That was 
one of the biggest lessons learned out of that.
    I think that was part of why there was success there in New 
York and New Jersey and all throughout the areas impacted by 
Sandy. Because the biggest thing that we found out is that any 
communication plan that is media-centric is not going to work, 
because the media, traditional media, has lost audience. With 
the explosion of social media, of course, video-on-demand, on-
line streaming, everyone has a greater choice, and the sources 
of information that people have is bigger today than it ever 
has been.
    I mean, for example, if you look at the combined audience 
for the three nightly news for ABC, NBC, and CBS, it is only 
about 22 million, average, right? Which means that the other 
300 million people in America aren't watching it or they are 
watching something else or they are not watching anything at 
all, right? So that is just a small example of the challenges 
that we face in, not only Government, but I think the corporate 
world, the business world, is facing that same exact challenge.
    That is what we learned, that we had to not be media-
centric. We needed to look at all channels of communication, 
and we needed to be consistent.
    So, in New York, I think what happened, we used the Whole 
Community approach. I give a great deal of credit to Craig 
Fugate, Administrator Fugate, and the folks at FEMA for 
changing their culture and really embracing this Whole 
Community approach, in which we are providing information to 
community leaders, faith-based, the private sector, as well as 
media and using social media itself. So we have to look at the 
entire spectrum of media channels, of the way people get 
information.
    Oh, by the way, using those local leaders who are trusted 
leaders. Sometimes groups might not trust us, but they will 
trust their local leaders. That is a really important thing 
that we have learned that we are doing.
    We also needed to plan up-front to work much harder to 
reach what I call the traditionally underserved populations--
the multilingual, the multicultural, the disability community, 
the disadvantaged. We knew going in there that we had to do a 
better job. So, for example, I led in New York. I had 143 
languages I had to deal with. I had a great deal of diversity 
across the city there in New York. Then we merged what we were 
doing with New Jersey, because the media markets were the same. 
So we had to use a wide range of channels to reach all those 
populations.
    I did not have the ability to translate everything into 143 
languages, which did not mean I didn't have the responsibility. 
I had the absolute responsibility for reaching out. So we did. 
We used every means we could, whether it was--we did reach out 
to multilingual media. We translated things into 20 languages. 
I created a second toll-free number because of feedback from 
the multilingual community that they weren't able to get 
through on the main number or they didn't understand.
    Of course, we used the private sector, including minority 
groups like the Chinese American Business Association, to reach 
out in every way we could to reach all those people.
    Mr. Payne. Thank you.
    I know my time is up. I did have a question for Ms. 
Kessler, if----
    Mr. Duncan. Go ahead.
    Mr. Payne. Thank you, Mr. Chairman. Because Mr. Jensen 
answered my first and second question, so--thank you.
    Ms. Kessler, due to either the actual or perceived fears, 
many racial and ethnic minority communities are reluctant to 
communicate with the Department of Homeland Security officials 
due to their fears that range from anything from deportation to 
unwanted Government attention or concerns about becoming 
victims of unlawful surveillance.
    How does your office combat these fears? Even more 
importantly, how does your office take steps to ensure that 
unlawful surveillance or intrusions do not result from 
communicating with the Department?
    Ms. Kessler. That is a great question.
    I think part of our effort is through our roundtables and 
educating people that they can come and that--building a trust 
relationship with our office and having people--that if they 
have concerns about specific things that the Department does, 
have people from the Department come and, in this community-
type setting, really talk through what their concerns are and 
get the real information from the Department. That is 
incredibly helpful.
    A great example of that was with the AIT machines. When 
they first went into use, there was a lot of concern by 
religious communities about modesty for women. So we arranged a 
chance for them to come to the airport, look at the AIT 
machine, really understand how it worked. Then that problem 
just sort of went away. We didn't hear any more concerns about 
it. So we were able to really work through that.
    In terms of where there are bad actors in the world, we 
take complaints, we investigate those complaints. My office's 
role is mainly to do policy recommendations and try to change 
policy where that is the problem. If it is misconduct, that is 
more handled by the Inspector General.
    But we have started to work very collaboratively in the 
past year, so that where the Inspector General is looking at 
misconduct and whether the complaint of profiling or a civil 
liberties complaint has a foundation, we are at the same time 
working on policy, how to prevent, training, new procedures, so 
that we have more oversight in the first place.
    Mr. Payne. Thank you.
    Mr. Chairman, I yield back.
    Mr. Duncan. I want to thank Mr. Jensen and Ms. Kessler for 
being here today. I want to echo the words of the Ranking 
Member earlier. Thank you for your service to our Nation and 
within the Department that is charged with a tremendous 
mission: To keep our Nation safe. We understand that. But I 
think the hearing has shown that communications, proactive 
communications, work better than reactive, and that is really 
the gist of it.
    So, before I dismiss the panel, I would just suggest that 
you guys hang around for the next panel. You might be able to 
pick up some tips from the private sector.
    But thank you for your service, thank you for your 
testimony. We look forward to working with you.
    We will dismiss the panel and get started with the second.
    Members are advised that votes will be about 11:15, so we 
have about an hour for the second panel.
    So we will dismiss the panel. Thank you.
    All right. The Chairman will now recognize the second 
panel. We are pleased to have additional witnesses before us 
today on this important topic.
    Let me remind the witnesses that their entire written 
statement will appear in the record. I will introduce each of 
you individually, and then we will recognize you for your 
opening statement.
    The first witness is Mr. Bill Braniff, the executive 
director of the National Consortium for the Study of Terrorism 
and Responses to Terrorism, or START. Previously, Mr. Braniff 
served as the director of practitioner education and instructor 
at West Point's Combating Terrorism Center, where he led the 
practitioner education program, the Nation's largest provider 
of counterterrorism education to the Federal, State, and local 
governments.
    Mr. Braniff frequently lectures for counterterrorism 
audiences. In addition, he has consulted with the Department of 
Justice, the FBI, and the National security staff, playing a 
key role in the interagency working group.
    Mr. Doug Pinkham is the president of Public Affairs 
Council, a leading international association for public affairs 
professionals. Mr. Pinkham was elected to head the Council in 
1997. Before joining the Council, Mr. Pinkham was vice 
president of communications for the American Gas Association. 
Mr. Pinkham is an accredited member of the Public Relations 
Society of America, serves on the board of the Institute for 
Public Relations, and previously served on the International 
Advisory Board of the Boston College Center for Corporate 
Citizenship. He is a member of the Arthur W. Page Society, an 
association of senior-level corporate communications 
executives.
    The Chairman will now recognize Mr. Braniff for an opening 
statement.

  STATEMENT OF WILLIAM BRANIFF, EXECUTIVE DIRECTOR, NATIONAL 
    CONSORTIUM FOR THE STUDY OF TERRORISM AND RESPONSES TO 
                           TERRORISM

    Mr. Braniff. Chairman Duncan, Ranking Member Barber, and 
esteemed Members of the committee, I would like to thank you on 
behalf the START center for inviting us to speak with you 
today.
    I have been scheduled to discuss our research findings on 
U.S. attitudes towards terrorism and counterterrorism and to 
provide recommendations on steps DHS can take to better engage 
with the American people. This testimony is based primarily on 
a National panel survey of 1,567 adults issued in the fall of 
2012 and the resulting analytical report authored by START 
researchers and sponsored by the Resilient Systems Division of 
the DHS Science and Technology Directorate.
    In the final section of the survey, we asked about two 
specific programs focused on increasing communication between 
members of the public and the Government on topics related to 
terrorism, one of which was the ``If You See Something, Say 
Something'' campaign, which I will just refer to as ``the 
campaign''; the other of which reflects Governmental community 
outreach strategies to counter violent extremism.
    While my written testimony goes into greater detail on the 
findings regarding the earlier sections of the survey, I will 
limit this testimony to discussion of the Department's 
engagement with the public, but with the caveat that this 
project was not designed to provide extensive analysis on that 
more focused topic, although future research certainly could do 
that.
    Results of the most relevant questions from the survey are 
as follows: More than 56 percent of respondents said they had 
not heard anything about the campaign. Just over 20 percent 
were not sure whether they had heard anything about it. 
However, of the 24 percent of respondents who had heard of the 
campaign, 85 percent thought it would be very or somewhat 
effective.
    The respondents least familiar with the campaign included 
the 18- to 29-year-old demographic, those from the Midwest, and 
those from nonmetropolitan statistical areas. Those most 
familiar with the campaign include respondents from the 
Northeast, respondents over 60 years of age, and those from 
metropolitan statistical areas, as well as those who made over 
$75,000 per year.
    When asked, clear majorities of respondents said that they 
would be willing to meet with people from DHS, 57 percent, and 
with local police, 58 percent, to talk about terrorism. People 
who saw the Government as very effective, 33 percent, or 
somewhat effective, 54 percent, in preventing terrorism were 
more likely to say that they were willing to meet with 
authorities than those who saw the Government as ineffective.
    Taking the survey as a whole, I arrive at eight conclusions 
and recommendations.
    No. 1, the survey found that Americans think about the 
prospect of terrorism more frequently than they think about 
hospitalization or being the victims of violent crime, 
suggesting that Americans are not complacent regarding the 
threat of terrorism. These results suggest that Americans will 
perceive awareness campaigns and town hall meetings as 
relevant, a finding reinforced by these survey results.
    No. 2, fewer respondents indicated that they would be very 
likely to call the police if they saw or heard about a person 
joining a terrorist group than if they saw or heard about a 
person planning to break into a house. Therefore, a public 
education campaign focusing on the criminality of behaviors 
such as joining a terrorist group may help highlight the 
significance of those activities and result in higher reporting 
levels in the future.
    No. 3, approximately 24 percent of respondents from the 
National sample indicated that they had heard of the campaign, 
a program created in 2002 by the Metropolitan Transit Authority 
in New York and adopted for roll-out across the Nation by DHS 
only in 2012. Awareness of the campaign in the Northeast, where 
a version of the program has been implemented for over a 
decade, was significantly greater than the National average, at 
nearly 43 percent. This suggests merely that continued 
implementation of the program over time may increase the 
public's awareness of it in other regions of the country.
    No. 4, it is not clear what a realistic expectation for 
awareness of the program should be, however. According to the 
most recent data available from the U.S. Census Bureau's 
American Community Survey, only 4.99 percent of commuters use 
mass transportation as their primary means of commuting to 
work. Reaching significantly higher percentages of atomized 
Americans outside of the mass transit infrastructure, 
therefore, may be costly or unrealistic. However, this research 
effort does not speak to that question.
    No. 5, trying to increase awareness of the program is, 
however, a cost-effective--in a cost-effective manner is, of 
course, a worthwhile goal. To address the communities least 
familiar with the campaign, DHS can consider focusing on 
population centers in the West, Midwest, and South, focusing on 
Americans making less than $75,000 per year, and increasing its 
use of social media and its presence on college campuses to 
reach younger citizens.
    No. 6, given their willingness to do so, DHS and its 
Federal, State, local, and Tribal partners should take 
advantage of the opportunity to meet with Americans to raise 
awareness of the campaign and to educate Americans about 
criminal behaviors related to terrorism.
    No. 7, when a majority of respondents opined that terrorist 
groups will eventually succeed in carrying out an attack 
despite Government efforts, the respondents did not see this as 
a failure of the Government. This is a powerful indicator of 
societal resilience as well as evidence that Americans do not 
expect the Government to interdict every plot on their own, 
suggesting that there is a role for citizens in saying 
something.
    Further, Government authorities and DHS across the spectrum 
should be cautious of adopting zero-tolerance rhetoric with 
respect to counterterrorism lapses, as eroding the public's 
trust in the Government or intimating that the Government 
should be able to thwart every attack on its own may actually 
decrease the public's willingness to engage with Government 
through community outreach and awareness programs.
    No. 8, finally, the willingness of DHS to fund an 
independent research project that gives voice to the opinions 
of the American citizen, which this survey did, and serves as 
an objective assessment tool to help Federal, State, local, and 
Tribal leaders allocate finite resources more effectively, as 
this project has done, is one final example of what DHS should 
continue to do. Not doing so or encouraging them not to do so 
would have a chilling effect on the self-appraisal and research 
and development processes which are so important for a 
professional organization trying to improve.
    Thank you.
    [The prepared statement of Mr. Braniff follows:]
                 Prepared Statement of William Braniff
                              21 May 2013
    Chairman McCaul, Subcommittee Chairman Duncan, Ranking Member 
Barber, and esteemed Members of the committee, I would like to thank 
you on behalf of the National Consortium for the Study of Terrorism and 
Responses to Terrorism, known as START,\1\ for inviting us to speak 
with you today.
---------------------------------------------------------------------------
    \1\ START is supported in part by the Science and Technology 
Directorate Office of University Programs of the U.S. Department of 
Homeland Security through a Center of Excellence program based at the 
University of Maryland. START uses state-of-the-art theories, methods, 
and data from the social and behavioral sciences to improve 
understanding of the origins, dynamics, and social and psychological 
impacts of terrorism.
---------------------------------------------------------------------------
    I've been asked to discuss the START Consortium's findings on U.S. 
attitudes toward terrorism and counterterrorism and to provide 
recommendations on steps the Department of Homeland Security (DHS) can 
take to better engage with the American people.
    This testimony is based primarily on a National panel survey and 
the resulting analytical report \2\ authored by investigators from 
START and the Joint Program on Survey Methodology (JPSM),\3\ and 
sponsored by the Resilient Systems Division of the DHS Science and 
Technology Directorate.\4\
---------------------------------------------------------------------------
    \2\ LaFree, Gary, and Stanley Presser, Roger Tourangeau, Amy 
Adamczyk, ``U.S. Attitudes toward Terrorism and Counterterrorism,'' 
Report to the U.S. Department of Homeland Security, Science and 
Technology Directorate's Resilient Systems Division. College Park, MD: 
START, 2013. www.start.umd.edu/start/publications/
START_USAttitudesTowardTerrorismand= Counterterrorism_March2013.pdf. I 
am especially grateful for the generous support of Dr. Amy Adamczyk in 
running additional analyses on survey results specific to the ``If You 
See Something, Say Something'' campaign (see Table 3). However, any 
errors or omissions within this testimony are mine alone.
    \3\ The Joint Program in Survey Methodology (JPSM) is the Nation's 
oldest and largest program offering graduate training in the principles 
and practices of survey research. It is sponsored by the Federal 
Interagency Consortium on Statistical Policy. Its faculty is drawn from 
the University of Maryland, the University of Michigan, Westat, and 
other organizations.
    \4\ Award Number 2010ST108LR0004. This testimony reflects the 
opinions of the author and not necessarily those of the START 
Consortium or the Department of Homeland Security.
---------------------------------------------------------------------------
    The survey was developed by two leading survey methodologists 
following a thorough review of past surveys on attitudes toward 
terrorism and counterterrorism, consultations with a research team of 
experts who study the dynamics of terrorism and counterterrorism, as 
well as consultations with officials from the homeland security 
community.
    The questions were administered to members of a national panel by 
the on-line survey firm Knowledge Networks, and a second wave of the 
survey has been deployed 6 months after the first wave to allow for 
analysis of attitudes over time. The first wave of the questionnaire, 
which included approximately 60 items, was completed from September 28, 
2012 to October 12, 2012 by 1,576 individuals 18 years of age and 
older.\5\
---------------------------------------------------------------------------
    \5\ The first wave of the study involved providing self-
administered questionnaires to a random sample of computer users from 
the National panel created by Knowledge Networks (KN). The KN National 
panel consists of a probability sample of non-institutionalized adults 
residing in the United States. (Members of the sample who did not own a 
computer were given one when they joined the panel.) Of the panel 
members invited to participate in our survey, 62 percent completed it. 
To account for nonresponse and noncoverage, the estimates presented in 
this report were weighted to 2012 totals from the Census Bureau's 
Current Population Survey (CPS) for seven variables: Age, sex, region, 
race, Hispanic ethnicity, education, and income. This standard survey 
procedure ensures that the distributions of these background variables 
for the 1,576 cases match those in the CPS and is likely to improve the 
survey estimates to the extent the survey variables are related to the 
background variables.
---------------------------------------------------------------------------
    To provide preliminary information about the results of the survey, 
we have divided the responses into three broad sections. In the first 
section respondents were asked whether they had thought about 
terrorism, how much it worried them and how likely they thought it was 
to occur in the future. The second section of the questionnaire posed 
questions about how likely respondents would be to call the police in 
response to various actions potentially related to terrorism. It then 
assessed respondents' awareness, and evaluation, of Government efforts 
related to terrorism in the United States. In a final section, we asked 
about two specific programs focused on increasing communication between 
Members of the public and the Government on topics related to 
terrorism.
                        thinking about terrorism
    About 15 percent of the sample said they had thought about the 
prospect of terrorism in the preceding week, more than the fraction who 
said they had thought about hospitalization (10 percent) and violent 
crime victimization (10 percent), but about the same fraction as those 
who said they had thought about job loss (16 percent). Just over 20 
percent of those who had thought about terrorism in the preceding week 
said they had done something differently in the past year due to the 
possibility of an attack compared to 4 percent of those who had not 
thought about it. Among all respondents, about 5 percent said a 
terrorist attack was extremely or very likely to happen in the United 
States in the next year.\6\ Slightly fewer respondents said it was 
extremely or very likely that they would experience hospitalization (3 
percent), violent criminal victimization (2 percent) or a job loss (3 
percent). Even fewer respondents assigned these chances to a terrorist 
attack in their own community (1.5 percent).
---------------------------------------------------------------------------
    \6\ [Sic.]
---------------------------------------------------------------------------
    Toward the end of the questionnaire we measured whether respondents 
had direct experience with the more personal negative events. Fourteen 
percent of those who had not been victims of violent crime had thought 
about terrorism in the last week, whereas 31 percent of the violent 
crime victims had thought about terrorism. The very small number of 
people who reported such victimization (4 percent) means that it cannot 
explain most of the variation in whether people said they thought about 
terrorism. Thus, we next considered whether where respondents lived was 
related to reporting such thoughts.
    Surprisingly, we found no evidence that living in a metropolitan 
area increased the odds of having thought about terrorism. And although 
metropolitan area residents were 3 percentage points more likely to say 
a terrorist attack was extremely or very likely in the next year, they 
were also 6 percentage points more likely to say it was extremely or 
very unlikely to occur. Likewise, although we have too few cases in the 
metro Washington, DC or New York areas to make inferences about their 
residents, there was little sign that respondents in the States of New 
York, New Jersey, or Connecticut differed from respondents living in 
other States in thinking about terrorism or in judging its likelihood.
    Table 1 shows the relationship of thinking about terrorism and 
respondents' gender, age, education, and race/ethnicity. Men and women 
answered the question in a similar fashion. Likewise, education was 
largely unrelated to reports of having thought about terrorism. Blacks, 
Hispanics, and Asians were all significantly less likely to have said 
they thought about terrorism. Finally, older respondents were more 
likely to say they thought about terrorism.

    TABLE 1.--PERCENT HAVING THOUGHT ABOUT TERRORISM BY GENDER, AGE,
                      EDUCATION, AND RACE/ETHNICITY
------------------------------------------------------------------------
                                                          Amount
------------------------------------------------------------------------
Men............................................              13.6% (745)
Women..........................................              15.8% (810)
18-29..........................................               7.4% (324)
30-44..........................................              13.2% (403)
45-59..........................................              15.7% (426)
60+............................................              21.3% (402)
Less than HS...................................              11.1% (186)
High School....................................              15.8% (474)
Some College...................................              14.1% (444)
BA or More.....................................              15.7% (451)
White..........................................             17.2% (1049)
Black..........................................              11.9% (176)
Hispanic.......................................               8.8% (223)
Other..........................................                5.7% (88)
------------------------------------------------------------------------

 respondents' views of terrorism and government responses to terrorism
    In a second section of the questionnaire, respondents were asked 
how likely they would be to call the police in response to various 
actions potentially related to terrorism (see Table 2) and how 
concerned they felt the Government should be about these actions. In 
general, responses to these two items were strongly correlated. 
Respondents indicated they would be more likely to call the police or 
think that the Government should be very concerned about someone 
``talking about planting explosives in a public place'' than any other 
activity.
    As a benchmark for these items, we asked respondents how likely 
they would be to call the police if they overheard people talking about 
breaking into a house in their neighborhood. About 70 percent of the 
respondents said they would be very likely to call the police in this 
situation; a somewhat higher percentage said they would be very likely 
to call the police if they heard someone talking about planting 
explosives in a public place (76 percent). At the other end of the 
spectrum, about 21 percent of the respondents said they would be very 
likely to call the police if they heard about someone reading material 
from a terrorist group. Respondents who said they had thought about a 
terrorist attack in the last week were more likely than other 
respondents to say they were likely to call the police in response to 
the various situations described to them.

                                     TABLE 2.--LIKELIHOOD OF CALLING POLICE
----------------------------------------------------------------------------------------------------------------
                                                                                         Not at
                                                         Very     Somewhat   Not Too      All          Total
                                                        Likely     Likely     Likely     Likely
----------------------------------------------------------------------------------------------------------------
A Person:
     . . . talking about breaking into a house......      69.6%      18.9%       5.3%       6.2%     100% (1542)
     . . . talking about joining a terrorist group..      41.4%      28.7%      20.8%       9.1%     100% (1545)
     . . . talking about planting explosives........      76.1%      13.1%       4.6%       6.1%     100% (1543)
     . . . reading material from terrorist group....      20.6%      28.5%      35.4%      15.5%     100% (1544)
     . . . stockpiling guns.........................      38.7%      24.9%      23.4%      13.0%     100% (1542)
     . . . traveling overseas to join terrorist           52.0%      23.4%      14.7%       9.9%     100% (1547)
     group..........................................
     . . . distributing handouts in support of            46.2%      28.4%      17.4%       7.9%     100% (1540)
     terrorism......................................
----------------------------------------------------------------------------------------------------------------

    The questionnaire also included three items asking respondents 
about their overall views about the threat of terror, the effectiveness 
of the Government counterterrorism efforts, and their confidence in the 
people running the Executive branch of the Federal Government.
    A large majority of the respondents said that the U.S. Government 
has been very effective (33 percent) or somewhat effective (54 percent) 
at preventing terrorism; less than 13 percent characterized the 
Government as not too effective or not effective at all. Despite this 
positive view of the Government's efforts to prevent terrorism, a large 
majority (69 percent) endorsed the view that ``terrorists will always 
find a way to carry out major attacks no matter what the U.S. 
Government does.''
 ``if you see something, say something'' and willingness to meet with 
                              authorities
    The survey also asked respondents about two specific programs 
focused on increasing communication between members of the public and 
the Government on topics related to terrorism.
    The first was the ``If You See Something, Say Something'' 
campaign.\7\ Most respondents (more than 56 percent) said they had not 
heard anything about this campaign, and a substantial number (more than 
20 percent) were not sure whether they had heard anything about it. Of 
those who had heard something about the campaign, most thought it would 
be very (18 percent) or somewhat (67 percent) effective.
---------------------------------------------------------------------------
    \7\ In July 2010, the Department of Homeland Security (DHS), at 
Secretary Janet Napolitano's direction, launched a National ``If You 
See Something, Say Something'' campaign--a program to raise public 
awareness of indicators of terrorism and terrorism-related crime, and 
to emphasize the importance of reporting suspicious activity to the 
proper State and local law enforcement authorities.

   TABLE 3.--PERCENT HAVING HEARD ANYTHING ABOUT THE ``SEE SOMETHING, SAY SOMETHING'' CAMPAIGN BY GENDER, AGE,
                                INCOME, REGION AND METROPOLITAN STATISTICAL AREA
----------------------------------------------------------------------------------------------------------------
                                                                    Yes         No      Not Sure       Total
----------------------------------------------------------------------------------------------------------------
Men............................................................      26.6%      55.1%      18.4%      100% (817)
Women..........................................................      21.9%      56.9%      21.2%      100% (735)
18-29..........................................................      18.9%      58.0%      23.1%      100% (243)
30-44..........................................................      24.4%      56.4%      19.3%      100% (353)
45-59..........................................................      23.4%      57.8%      18.8%      100% (479)
60+............................................................      28.1%      52.6%      19.3%      100% (477)
Less than $40k.................................................      21.6%      56.3%      22.2%      100% (487)
Between $40k-$75k..............................................      19.2%      60.4%      20.4%      100% (427)
Over $75k......................................................      29.9%      52.7%      17.4%      100% (638)
Midwest........................................................      16.1%      67.5%      16.4%      100% (360)
Northeast......................................................      42.6%      37.9%      19.5%      100% (298)
South..........................................................      20.9%      58.3%      20.9%      100% (542)
West...........................................................      22.7%      55.7%      21.6%      100% (352)
Metropolitan Statistical Area..................................      26.5%      53.4%      20.1%     100% (1303)
Non-Metropolitan Stat. Area....................................      13.3%      69.1%      17.7%      100% (249)
----------------------------------------------------------------------------------------------------------------

    The respondents least familiar with the campaign include the 18-29 
year old demographic, those from the Midwest, and those from non-
Metropolitan Statistical Areas.\8\ Those most familiar with the 
campaign include respondents from the Northeast, respondents over 60 
years of age, those from Metropolitan Statistical Areas, and those who 
made over $75,000 per year.
---------------------------------------------------------------------------
    \8\ ``A geographic entity, defined by the Federal OMB for use by 
Federal statistical agencies, based on the concept of a core area with 
a large population nucleus, plus adjacent communities having a high 
degree of economic and social integration with that core. Qualification 
of an MSA requires the presence of a city with 50,000 or more 
inhabitants, or the presence of an Urbanized Area and a total 
population of at least 100,000 (75,000 in New England). The county or 
counties containing the largest city and surrounding densely settled 
territory are central counties of the MSA. Additional outlying counties 
qualify to be included in the MSA by meeting certain other criteria of 
metropolitan character, such as a specified minimum population density 
or percentage of the population that is urban. MSAs in New England are 
defined in terms of cities and towns, following rules concerning 
commuting and population density. MSAs were first defined and effective 
June 30, 1983.'' http://www.census.gov/geo/lv4help/cengeoglos.html.
---------------------------------------------------------------------------
    The survey also asked respondents whether they would be willing to 
attend a meeting with local police or with people from the Department 
of Homeland Security to talk about terrorism. Clear majorities of 
respondents said they would be willing to meet with people from DHS (57 
percent) and with local police (58 percent) to talk about terrorism. 
Most people (88 percent) gave the same answer to the two questions; 
that is, the same people who were willing to attend a meeting with 
people from DHS were also willing to attend a meeting with local police 
to talk about terrorism. People who saw the Government as very or 
somewhat effective in preventing terrorism were more likely to say they 
were willing to attend such meetings than those who saw the Government 
at not too or not at all effective at preventing terrorism (see Table 
4).

          TABLE 4.--WILLINGNESS TO ATTEND A MEETING WITH LOCAL POLICE OR DHS, BY PERCEIVED EFFECTIVENESS OF GOVERNMENT IN PREVENTING TERRORISM
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Willing To Attend Meeting With Local     Willing To Attend Meeting With
                                                                                             Police                            People From DHS
                                                                             ---------------------------------------------------------------------------
                                                                                 Yes         No          Total         Yes         No          Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Effectiveness of Government at preventing terrorism:
    Very effective..........................................................      63.0%      37.0%      100% (510)      62.7%     37.30%      100% (515)
    Somewhat effective......................................................      61.0%       39.0      100% (827)      58.6%      31.4%      100% (829)
    Not too or not at all effective.........................................      36.8%       63.2      100% (191)      39.3%      60.7%      100% (194)
                                                                             ---------------------------------------------------------------------------
      Total.................................................................      58.5%      41.5%     100% (1537)      57.4%      42.6%     100% (1548)
--------------------------------------------------------------------------------------------------------------------------------------------------------

                    conclusions and recommendations
    This survey found that Americans think about the prospect of 
terrorism more frequently than they think about hospitalization or 
being the victims of violent crime, suggesting that Americans are not 
complacent regarding the threat of terrorism. These results suggest 
that Americans will perceive awareness campaigns like ``If You See 
Something, Say Something'' as relevant, a finding reinforced by the 
fact that 85 percent of respondents who had heard of the campaign 
indicated they thought it would be very or somewhat effective.
    The survey results also revealed that respondents who said that 
they had thought about a terrorist attack in the last week were more 
likely than other respondents to say they were likely to call the 
police in response to various scenarios described to them, and were 
also more likely to indicate that they had altered their behavior over 
the previous year because of the possibility of an attack. These 
findings do not demonstrate causality, that priming people to think 
about terrorism results in a change in behavior, but do suggest that 
heightened awareness and security-conscious behavior of the citizenry 
may be correlated. Fewer respondents indicated that they would be 
``very likely'' to call the police if they saw or heard about a person 
joining a terrorist group than if they saw or heard about a person 
planning to break into a house. Public education on the criminality of 
behaviors such as joining a terrorist group, which would constitute 
material support for a designated terrorist organization, may help 
highlight the significance of those activities and result in higher 
reporting levels in the future.
    Interestingly, there was no evidence that living in a metropolitan 
area increased the odds of having thought about terrorism in the 
previous week, despite the fact that 10 cities account for 40.6 percent 
of all U.S. attacks from 1970-2011.\9\ Given the greater frequency of 
terrorist incidents within cities, and the greater number of citizens 
available to engage with efficiently, DHS should continue to focus on 
metropolitan areas even though respondents were significantly more 
likely to have heard of ``If You See Something, Say Something '' in 
those areas.
---------------------------------------------------------------------------
    \9\ LaFree, Gary, and Laura Dugan, Erin Miller, ``Integrated United 
States Security Database (IUSSD): Terrorism Data on the United States 
Homeland, 1970 to 2011,'' Final Report to the Resilient Systems 
Division, DHS Science and Technology Directorate, U.S. Department of 
Homeland Security. College Park, MD: START, 2012. The 10 cities 
include: New York City, NY; San Juan, PR; Los Angeles, CA; San 
Francisco, CA; Miami, FL; Washington, DC; Chicago, IL; Seattle, WA; 
Berkeley, CA; and Denver, CO.
---------------------------------------------------------------------------
    Approximately 24 percent of respondents from the National sample 
indicated that they had heard of the ``If You See Something, Say 
Something'' campaign, a program created in 2002 by the Metropolitan 
Transit Authority in New York and adopted for roll-out across the 
Nation by the Department of Homeland Security in 2010. Awareness of 
this campaign in the Northeast, where a version of the program has been 
implemented on various forms of mass transit for over a decade, was 
significantly greater at nearly 43 percent. This suggests that 
continued implementation of the program over time may increase the 
public's awareness of it in other regions of the country.
    It is not clear what a realistic expectation for awareness of the 
program should be, however. According to the most recent data available 
from the U.S. Census Bureau's American Community Survey, only 4.99 
percent of commuters in 2009 used mass transportation as their primary 
means of commuting to work.\10\ This suggests that while mass 
transportation infrastructure provides an efficient marketing platform 
to capture a percentage of Americans, increasing awareness of ``If You 
See Something, Say Something'' is not simply a matter of more marketing 
on buses and subways. It is likely that this commuter population is 
already highly represented in the current awareness figures given the 
centrality of mass transit to the campaign, and reaching significantly 
higher percentages of atomized Americans outside of aggregators like 
mass transit infrastructure may be costly.
---------------------------------------------------------------------------
    \10\ ``Transit Commuting Reported in the American Community 
Survey,'' American Public Transit Association summary document. 
December 22, 2010. http://www.apta.com/resources/statistics/Documents/
2009_ACS_Transit_Commuter_Data.pdf.
---------------------------------------------------------------------------
    Trying to increase awareness of the program in a cost-effective 
manner is a worthwhile goal, however. To address the communities least 
familiar with the ``If You See Something, Say Something'' campaign, DHS 
can consider focusing on population centers in the West, Midwest, and 
South, focusing on marketing material that will reach those Americans 
making less than $75,000 per year, and increasing its use of social 
media \11\ and its presence on college campuses to reach younger 
citizens.
---------------------------------------------------------------------------
    \11\ For a discussion of the efficacy of social media with respect 
to a different Government awareness effort, see the forthcoming START 
case study: Fraustino, Julia Daisy, and Liang Ma. ``If You're Ready for 
a Zombie Apocalypse, then You're Ready for Any Emergency: The CDC's use 
of Social Media and Humor in a Disaster Preparedness Campaign,'' 
College Park, MD: START, 2013.
---------------------------------------------------------------------------
    A large majority of the respondents said that the United States 
Government has been very effective (34 percent) or somewhat effective 
(53 percent) at preventing terrorism, and a majority indicated a 
willingness to meet with Federal and local authorities to discuss 
terrorism. Respondents were more likely to indicate the willingness to 
meet when they also indicated a higher opinion of the Government's 
effectiveness at preventing terrorism. While a majority of respondents 
opined that terrorist groups will eventually succeed in carrying out an 
attack despite Government efforts, the respondents did not see this as 
a failure of the Government. These are powerful indicators of societal 
resilience, as well as evidence that Americans do not expect the 
Government to interdict every plot on its own.
    DHS and its Federal, State, local, and Tribal-level partners should 
take advantage of the opportunity to meet with Americans to raise 
awareness of ``If You See Something, Say Something,'' to educate 
Americans about criminal behaviors related to terrorism, and to engage 
in a dialogue on how the Government can improve upon the already-high 
levels of trust with respect to counterterrorism. Governmental 
authorities across the spectrum should be cautious of adopting ``zero 
tolerance rhetoric'' with respect to counterterrorism lapses, as 
eroding the public's trust in the Government or intimating that the 
Government should be able to thwart every terrorist plot alone may 
decrease the public's willingness to engage with Government through 
community outreach and awareness programs.
    The willingness of DHS to fund an independent research project that 
gives voice to the opinions of American citizens and serves as an 
objective assessment tool to help Federal, State, local, and Tribal 
leaders allocate finite resources more effectively is one final example 
of what DHS should continue to do.\12\ Not giving the Department credit 
for the level of introspection evidenced through this research project 
may have a chilling effect on the self-appraisal and research and 
development efforts that are so essential for professional 
organizations seeking to improve.
---------------------------------------------------------------------------
    \12\ For example, after publishing the results of this survey, 
START received a phone call from a State homeland security advisor from 
the Midwest who informed us of his plans to work with local media to 
raise awareness of the campaign based on these research findings.

    Mr. Duncan. Thank you, Mr. Braniff.
    The Chairman will now recognize Mr. Pinkham for an opening 
statement.

  STATEMENT OF DOUGLAS G. PINKHAM, PRESIDENT, PUBLIC AFFAIRS 
                            COUNCIL

    Mr. Pinkham. Chairman Duncan, Ranking Member Barber, and 
Members of the subcommittee, my name is Doug Pinkham. I am 
president of the Public Affairs Council here in Washington. I 
am pleased and honored to have the opportunity to participate 
in this hearing to discuss best practices in communications and 
public affairs and what DHS can learn from the private sector.
    The Public Affairs Council is an international organization 
for public affairs professionals. We work to advance the field 
of public affairs and to provide our members with expertise 
that they need to succeed, while maintaining the highest 
ethical standards. We have roughly 650 member organizations 
around the world and about 7,000 people active in our programs. 
While this is unusual in Washington, we are actually both 
nonpolitical and nonpartisan.
    For large companies and large institutions of all types, 
the last 20 years have brought a world of opportunities and 
threats. Brands are more powerful than ever, but they are also 
more fragile than ever. As technology has enabled collection 
and dissemination of useful data, the burden has shifted onto 
large institutions to defend why information they have 
shouldn't be shared. In a democracy, this can be a positive 
development, but it does present both resource and management 
issues.
    Seismic changes in the media landscape have created major 
communications challenges for every organization. Finally, high 
levels of public distrust also hamper the abilities of both 
companies and Government to operate effectively.
    Faced with this environment, communications and public 
affairs professionals have had to adopt new ways to disseminate 
information, earn the trust of the public, and manage their 
overall reputations.
    Based on our expertise, we have found that companies with 
successful communications and public affairs functions 
demonstrate certain common characteristics. The following is a 
quick list of 10 such characteristics.
    No. 1, senior management support and involvement. It is 
absolutely essential that senior management personnel are 
engaged in all major aspects of communications and public 
affairs.
    No. 2, a well-developed issues-management process. Smart 
companies have internal systems for identifying communications 
and public affairs issues, setting priorities, carrying out 
plans, and then, importantly, measuring results.
    No. 3, strong collaboration between all external teams. It 
can be inefficient and even dangerous to build silos that 
separate people and programs with similar goals.
    No. 4, integrated crisis communications planning. 
Similarly, when a leading company faces a crisis, it 
communicates to all major stakeholders, including Members of 
Congress, in ways that resonate with those groups.
    No. 5, understanding of risk communication. Companies that 
understand the psychology of risk perception are often better 
able to connect with stakeholders and respond to community 
concerns.
    No. 6, strategic use of communications technologies. Most 
major corporations use social media and related technologies to 
dialogue with customers, give a voice to brand champions, 
promote products, and counter negative publicity, among other 
applications.
    No. 7, innovative approaches to media relations. 
Communications executives are increasingly bypassing 
traditional media by distributing useful and credible 
information through a variety of channels both on-line and off-
line.
    Transparent and on-going communications is No. 8. The 
challenge is committing to transparency that is sustainable and 
desirable for the enterprise. Firms that promise to be open and 
then change their minds are actually worse off than those who 
never claimed to be transparent in the first place.
    No. 9, a focus on employee communications, often an area 
that doesn't get looked at nearly enough. Leading companies 
have come to realize that their own employees are often their 
most important audience.
    No. 10, robust performance measurement systems. Measurement 
systems that focus on counting the number of media articles 
published, speeches given, website hits received, or tweets 
made measure activity rather than impact. The most effective 
evaluation programs define clear communications goals and then 
measure progress toward those goals.
    Finally, I just have a few general observations that can be 
considered along with these best practices, and I hope they can 
be of value to DHS and your oversight of DHS.
    First, because consumer-facing components of the agency 
will naturally draw attention from the public and the news 
media, the mix of communication strategies used at DHS would 
and should vary substantially among its different branches.
    Second, DHS leadership should continue to collaborate with 
academics, nonprofits, the private sector, and others to ensure 
that a wide variety of voices are being heard when trying to 
communicate key messages to the public.
    Third, because DHS deals with major National security and 
civil liberty issues, it has to be diligent about setting the 
record straight when the public is misinformed. Yet, at the 
same time, it must do so with compelling stories that are then 
supported by the facts.
    Fourth, when evaluating DHS's performance, it is important 
for everyone that expectations are set at achievable levels and 
that the proper metrics are being used.
    So thank you once again for this opportunity to appear 
before this committee to address best practices in both 
communications and public affairs. I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Pinkham follows:]
                Prepared Statement of Douglas G. Pinkham
                              May 21, 2013
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, my name is Doug Pinkham and I am president of the Public 
Affairs Council in Washington, DC. I am pleased and honored to have the 
opportunity to participate in this hearing to discuss ``best 
practices'' in communications and public affairs at leading companies 
and what DHS can learn from the private sector.
    The Public Affairs Council is an international organization for 
corporate and association public affairs professionals. Launched in 
1954, the Council works to advance the field of public affairs and to 
provide members with the executive education and expertise they need to 
succeed while maintaining the highest ethical standards. The 
organization has more than 640 member companies and associations, 
representing 7,000 people working in the public affairs field. The 
Council is both non-partisan and non-political.
    ``Public affairs'' is a term that means different things to 
different people. In the Federal Government, it refers to the function 
that manages communication with the news media and other important 
stakeholders. In many large corporations, it means the function that is 
responsible for Government relations. The Council embraces a broader 
definition. We believe that public affairs represents an organization's 
efforts to monitor and manage its business environment. It combines 
communications, Government relations, issues management, and corporate 
citizenship strategies to improve public policy, build a strong 
reputation, and find common ground with stakeholders.
                  managing in a difficult environment
    For large companies--and large institutions of all types--the last 
20 years have brought a world of opportunities and threats. On the one 
hand, information technology and globalization have given firms 
unprecedented access to new markets, new customers, and new ideas that 
enable them to grow larger and more profitable. Certain popular 
``brands'' now have greater value than most companies. According to 
Forbes magazine, Apple's brand is now worth $87.1 billion, which is 
more than 50 percent higher than its level 2 years ago.
    On the other hand, brands are also more fragile than they've ever 
been before. Rightly or wrongly, groups and individuals with a 
complaint or a political cause have the tools to attack corporate 
brands directly, by leveraging the influence of major customers, by 
launching shareholder campaigns, or by ``hijacking'' a brand to promote 
an issue.
    A second challenge facing large institutions is the heightened 
expectation for transparency. As recently as the 1990s, well before 
social media and Big Data, the public didn't demand as much openness 
from corporations or Government. As technology enabled the collection 
and dissemination of useful data, the burden shifted onto large 
institutions to defend why information shouldn't be shared. In a 
democracy, this is a positive development. But it does present both 
resource and management issues for organizations trying to determine 
whether information is non-proprietary, unclassified, accurate, 
accessible, and distributable.
    Seismic changes in the media landscape have created major 
communications challenges for every organization. These challenges 
include:
  <bullet> Decline of many mainstream media companies, which often had 
        the most knowledgeable and experienced journalists;
  <bullet> The creation of thousands of new, internet-based media 
        outlets, with various levels of accuracy and accountability;
  <bullet> The end of the news cycle, which used to give communications 
        professionals time to respond more thoughtfully to negative or 
        controversial news;
  <bullet> The dawn of the age of ``truthiness,'' when unchecked 
        information sounds like it might be true and is spread 
        throughout the world before large institutions have the 
        opportunity correct the record.
    High levels of public distrust also hamper the ability of both 
companies and Government to operate effectively. Each year the Council 
publishes the Public Affairs Pulse survey, a major poll that measures 
public attitudes toward business and Government. In the 2012 survey, 
two-thirds of Americans (67%) said they have a favorable view of major 
companies, while only 4 in 10 Americans (41%) said they have a 
favorable view of the Federal Government.
    Yet, while overall attitudes toward business have become more 
positive in recent years, many Americans don't have much trust and 
confidence in major companies to ``do the right thing.'' For example, 
the survey found 55 percent of Americans have a lot of trust or some 
trust in corporations, while 44 percent do not trust major companies. 
There are substantial variations in trust by industry sector.
    Meanwhile, the public has doubts about whether the Federal 
Government can effectively handle the challenges that face the Nation. 
Only 41 percent said they have ``some'' or ``a lot'' of trust and 
confidence that the Government can solve the Nation's most important 
problems. A majority (58%) said they have ``not too much'' or no trust 
at all that the Government can solve these problems.
       redefining the communications and public affairs functions
    Faced with this environment, communications and public affairs 
professionals have had to adopt new ways to disseminate information, 
build rapport with stakeholders, earn the trust of the public and 
manage their overall reputations. They have had to learn to be more 
open, engaged, collaborative, and pro-active.
    The Arthur W. Page Society, a professional association for senior 
public relations and corporate communications executives, has developed 
a new model that explains how a company should define and protect its 
corporate character, and inspire groups and individuals to become 
champions.
    According to the Page Society, a chief communications officer (CCO) 
must be:
  <bullet> An integrator.--Working across the C-suite to make the 
        company ``think like'' and ``perform like'' its corporate 
        character.
  <bullet> A systems designer.--Not only systems of marketing and 
        communications, but of how these relate to the company's 
        operations and management systems.
  <bullet> A master of data analytics.--To understand customers, 
        employees, investors, citizens, and other stakeholders as 
        individuals rather than publics, audiences, and segments of 
        populations.
  <bullet> A publisher and developer.--The same tools of information 
        production that are in the hands of the masses are also 
        available to the CCO, who can directly inform, empower, and 
        equip targeted individuals.
  <bullet> A student of behavioral science.--To inform the shaping of 
        belief, action, behavior, and advocacy.
  <bullet> A curator of corporate character.--To ensure that the 
        company's communications and its people remain true to their 
        core identity.
    Needless to say, this model is a far cry from the role of the 
communications executive of 30 years ago, when many large companies 
focused their efforts on protecting their image and garnering favorable 
publicity. These days, firms put at least as much effort into ``being 
good'' as they do into ``looking good.''
                ``best practices'' of leading companies
    Based on the Public Affairs Council's research, benchmarking, and 
executive education experience, we have found that companies with 
successful communications and public affairs functions demonstrate 
certain common characteristics. The following is a list of 10 such 
characteristics, along with a discussion of why each one is important. 
This list can be adapted for use in evaluating communications and 
public affairs operations in Government agencies.

    1. Senior Management Support and Involvement.--In a Wall Street 
        Journal article, penned less than a year before he died in 
        2005, management guru Peter Drucker argued that the CEO's first 
        task is to define the outside world. Included in this category 
        are society, the economy, technology, markets, customers, the 
        media, and public opinion. The CEO's second task is to figure 
        out what information from the outside is meaningful and how to 
        process it effectively. Based on his or her best judgments, the 
        CEO decides business priorities and how to focus resources.

    In the 8 years since Drucker wrote that article, business has 
        experienced a blending of the inside and the outside. What goes 
        on within a company increasingly affects outcomes, and costs 
        associated with a firm's external environment are getting 
        harder to manage.

    That's why it is essential that senior management personnel are 
        engaged in all major aspects of communications and public 
        affairs.

    2. Well-Developed Issues Management Process.--Smart companies have 
        internal systems for identifying communications and public 
        affairs issues, setting priorities, carrying out plans and 
        measuring results. These systems tend to have an open 
        architecture that encourages input, ownership and evaluation by 
        others in the enterprise.

    While many models are used, one model we particularly like has the 
        following eight steps:

    <bullet> Interview senior management to determine the reputation 
            and public policy threats/opportunities the company faces;
    <bullet> Survey key employees, customers, suppliers, community 
            leaders, and other stakeholders to produce a list of 
            current and emerging issues;
    <bullet> Analyze the issues to determine what is currently known 
            about their current and future impact on the organization 
            (impact can take the form of direct or indirect costs);
    <bullet> Score issues for importance (based on impact) and 
            affectability (based on one's ability to affect the 
            outcome);
    <bullet> Sort out high and low scores and decide where to focus 
            resources--issues with high scores for both importance and 
            affectability should be at the top of one's priority list;
    <bullet> Narrow the list down to major priorities (with capacity 
            reserved to handle crises);
    <bullet> Define objectives, create strategies, and develop cross-
            functional tactics;
    <bullet> Set up a measurement and reporting system.

    This type of issues plan offers numerous benefits: It keeps staff 
        focused on issues that really matter, eliminates redundant 
        activities, makes it easier to identify common goals, and 
        engages top executives in the prioritization process. Some 
        companies have formal issues management systems, while others 
        have informal processes for setting priorities and coordinating 
        activities. What's important is that management makes it clear 
        that the company owns the issues and that everyone involved is 
        responsible for supporting key business objectives.

    3. Strong Collaboration Between All External Teams.--Many large 
        organizations, in both the private and public sectors, don't do 
        a good job of integrating the roles and responsibilities of 
        personnel involved in communications and public affairs. In 
        fact, a 2011 study by the Foundation for Public Affairs showed 
        that only 41 percent of 115 surveyed companies had a management 
        structure with fully integrated communications and public 
        affairs functions.

    Natural synergies exist among those who manage relationships with 
        Government, the media, local communities, employees, and other 
        stakeholders. It can be inefficient--and even dangerous--to 
        build ``silos'' that separate people and programs with similar 
        goals.

    In recent years, the arguments for joining forces--or at least 
        coordinating forces--have become stronger than ever. First and 
        foremost, public perception and public policy are closely 
        related. News travels fast, and bad news travels faster. 
        Companies that take an unpopular stand on an issue may find 
        themselves subject to protests and boycotts. Firms that are 
        frequently criticized in the media have a difficult time 
        advocating a legislative agenda. If the smallest business unit 
        in a large multinational makes an unethical business decision, 
        the entire enterprise suffers.

    Leading companies, nonprofits, and Government agencies understand 
        the synergies that can be gained by collaborating across 
        divisions and lines of business.

    4. Integrated Crisis Communication Planning.--Similarly, when a 
        leading company faces a crisis, it puts in motion a plan to 
        communicate to all major stakeholders in ways that resonate 
        with those groups. Years ago, crisis plans focused primarily on 
        the news media. Now many firms use a wide variety of tools 
        (print, broadcast, social media) to communicate with a wide 
        variety of stakeholders (employees, news media, customers, 
        suppliers, investors, policy-makers, local communities, 
        unions). As smart phones and social media become ubiquitous, 
        this communication is increasingly two-way.

    Global corporations are also considering new approaches to crisis 
        communication in light of the fact that different types of 
        spokespeople have different levels of credibility. The 2013 
        Edelman Trust Barometer, a comprehensive survey of global 
        trust, ranks the credibility of spokespeople in this way:

    <bullet> Academic or expert--69%
    <bullet> Technical expert in the company--67%
    <bullet> A person like yourself--61%
    <bullet> Financial or industry analyst--51%
    <bullet> NGO representative--51%
    <bullet> Regular employee--50%
    <bullet> CEO--43%
    <bullet> Government official or regulator--36%.

    When a crisis is at the acute stage, the public expects the CEO to 
        play a prominent role. In fact, in the 2012 Public Affairs 
        Pulse survey, 59 percent of respondents said that making top 
        executives available to answer questions about what happened 
        would do ``a lot'' to make them feel the company is doing the 
        right thing. However, in day-to-day communication or in 
        outreach to local communities, rank-and-file employees, 
        technical experts, or community leaders are often more 
        effective.

    5. Understanding of Risk Communication.--``Any given risk has a set 
        of identifiable characteristics that help predict what 
        emotional responses that risk will trigger,'' wrote David 
        Ropeik and George Gray of the Harvard Center for Risk Analysis 
        in their 2002 book, Risk. Communications professionals working 
        for chemical and nuclear energy companies, along with public 
        health officials, have developed a sophisticated knowledge of 
        these patterns. That's because they have to deal with questions 
        of risk and safety on a daily basis.

    But, increasingly, companies working in a wide array of industries 
        are applying risk communication principles to their public 
        outreach efforts. While an outraged community or group of upset 
        customers may not be facing an actual crisis, they experience 
        many of the same emotions of people in a crisis situation.

    According to Ropeik and Gray, major risk perception factors 
        include: Man-made risk versus natural risk; imposed risk versus 
        chosen risk; no-benefit risk versus risk with trade-offs; 
        gruesome risk versus regular risk; distrustful risk versus 
        trustworthy risk; risk with uncertainty versus risk with 
        certainty; and risks to children versus risks to adults.

    Companies that understand the psychology of risk perception are 
        often better able to connect with stakeholders, respond to 
        community concerns, and have credibility when they are facing a 
        crisis.

    6. Strategic Use of Communications Technologies.--Most major 
        corporations have integrated social media, video, and other 
        technologies into their communications operations. They use 
        them to dialogue with customers, give a voice to brand 
        champions, involve employees in outreach, promote products, 
        create communities of interest, counter negative publicity, and 
        advocate for public policy, among other applications.

    Smart companies have a clear understanding of the benefits and 
        limitations of these technologies. While social media can be an 
        effective tool for building rapport with stakeholders, a 
        company can't embark on a social media strategy with the idea 
        that it will control the conversation. As with all forms of 
        communication, social media programs should be launched because 
        they represent the highest strategic use of corporate 
        resources, not because everyone else seems to have a social 
        media program.

    7. Innovative Approaches to Media Relations.--Corporate 
        communications involves creating a dialogue about a company's 
        business, the principles behind its brand and what benefits it 
        offers to customers and society. Yet, because of all the 
        changes taking place in the news media, it has become 
        increasingly difficult for companies to tell their story in 
        ways that will reach significant numbers of people. As noted in 
        the summary of the Arthur W. Page Society's new model, 
        communications executives are increasingly becoming publishers 
        on behalf of their firms. They are bypassing traditional media 
        by distributing useful and credible information through a 
        variety of channels, both on-line and offline.

    8. Transparent and On-going Communications.--In the June 2009 
        edition of Harvard Business Review, James O'Toole and Warren 
        Bennis wrote that American business needed ``a culture of 
        candor.'' ``Because no organization can be honest with the 
        public if it's not honest with itself,'' they said, ``We define 
        transparency broadly, as the degree to which information flows 
        freely within an organization, among managers and employees, 
        and outward to stakeholders.''

    Being transparent about all aspects of company operations is easier 
        said than done, however. Some information is proprietary or 
        confidential for competitive reasons; other information can't 
        be released for legal reasons. Yet many successful companies 
        have learned to stretch themselves so that they can be more 
        responsive to public demands for openness. While business-to-
        business firms may not see as much immediate benefit to this 
        approach, consumer-based companies are increasingly 
        incorporating transparency practices into their communications.

    The challenge is committing to a level of transparency that is 
        sustainable and desirable for the enterprise. Firms that 
        promise to be open and then change their minds are worse off 
        than those that never claim to be transparent in the first 
        place.

    9. Focus on Employee Communications.--In a transparent world, 
        leading companies have come to realize that their own employees 
        are often their most important audience. Much of this is due to 
        the rising influence of word-of-mouth communication. If 
        employees are making authentic, positive statements on-line 
        about where they work, their messages will likely resonate with 
        friends and colleagues. On the other hand, if employees are 
        making negative comments, their messages could have an 
        extremely damaging impact.

    Several major studies have been conducted on best practices in 
        employee communication. In a comprehensive study conducted in 
        2005 by Gay, Mahoney and Graves, four key drivers accounted for 
        72 percent of variance in aligning employees with business 
        strategy: (1) Employee understanding of how they can help 
        achieve company goals, (2) employee commitment to business 
        strategy, (3) the use of technologies to enhance understanding 
        of strategy, and (4) building trust between leaders/managers 
        and employees.

    10. Robust Performance Measurement System.--Communications and 
        public affairs success can be measured in many ways, but some 
        methods are more reliable than others. Systems that focus on 
        counting--the number of media articles published, speeches 
        given, website hits received, or tweets made--measure activity 
        rather than impact. The most effective evaluation programs 
        define clear communications goals and then measure progress 
        toward those goals.

    For companies associated with major brands, surveys and focus 
groups may be helpful in determining how a company is regarded by 
important stakeholders--especially in relation to competitors. Some 
firms analyze customer-generated and other data to determine whether 
communications activities have had a direct impact on sales, 
recruitment/retention, the tone of media coverage, or overall 
reputation.
                       insights and observations
    While I am not an expert on the Department of Homeland Security's 
communications policies and practices, I do have some general insights 
and observations that can be considered along with the above best 
practices:
  <bullet> In developing communications strategies in both the private 
        and public sectors, there's a natural tension between promoting 
        the identity and services of the parent organization and those 
        of each individual subsidiary. There's also a tension 
        associated with promoting one ``brand'' over another. In 
        tackling the challenge of communicating its mission, DHS takes 
        a hybrid approach, which seems appropriate. Consumer-facing 
        components such as TSA and FEMA, for instance, will naturally 
        draw attention from the public and the news media. 
        Consequently, the mix of communications strategies used--and 
        the resources required to fund those strategies--will vary 
        substantially among the different branches of the agency.
  <bullet> High levels of public distrust make the job of Government 
        communications especially difficult. As noted earlier, 
        Government officials or regulators don't score well as 
        spokespeople compared to technical experts, NGO 
        representatives, business leaders, or even average citizens. 
        DHS leadership should continue to collaborate with academics, 
        non-profit organizations, the private sector, and others to 
        ensure that a wide variety of ``voices'' are being heard when 
        communicating key messages.
  <bullet> Having the facts on one's side isn't enough. In both the 
        private and public sectors, leaders often try to persuade 
        skeptics by offering quantifiable proof of the correctness of 
        their policies and the quality of their performance. This 
        approach underestimates the power and influence of 
        misinformation campaigns and urban legends. Because DHS deals 
        with major National security and civil liberty issues, it has 
        to be diligent about setting the record straight when the 
        public is misinformed. Yet it must do so with compelling 
        stories to supplement its facts.
  <bullet> Measuring communications performance has become especially 
        difficult because the world has become so noisy. Even major 
        corporate brands feel fortunate when a modest percentage of the 
        public is aware of a new product's features. For Government 
        agencies facing tight budgets, it is especially hard to build 
        widespread awareness of programs, services, or other essential 
        information. Therefore, it's important that expectations be set 
        at levels that are achievable and that the proper metrics are 
        being utilized.
    Thank you again for this opportunity to appear before you today to 
address best practices in communications and public affairs, and what 
DHS can learn from the private sector. I am happy to answer any 
questions you may have.

    Mr. Duncan. Thank you so much.
    I thank the panelists.
    Is anyone left here with DHS's Public Affairs Office in the 
audience?
    You are? Okay. Thank you. Take note of what Mr. Pinkham 
said, his bullet points. We will try to get you a copy of that, 
as well. I thought that was very good.
    Mr. Braniff, you mentioned and I read in your testimony 
about the use of the mass transit systems up in the Northeast 
to communicate the ``See Something, Say Something'' marketing 
campaign.
    So do you think it is more effective in the Northeast to 
communicate because of the mass transit? Do you think more 
people are focused in on the threats than possibly in the South 
or the Midwest, where we don't have the mass transit systems 
like they do? Could you elaborate on that a little bit?
    Mr. Braniff. Certainly, Mr. Chairman. Thank you for the 
question.
    Interestingly, the survey results indicated that 
individuals living in urban centers were actually not any more 
likely to have thought about terrorism in the week leading up 
to the survey than those not living in urban centers.
    So there does not seem to be a heightened level of 
consciousness reported in this survey by those living in 
cities. So that doesn't explain the greater awareness of ``See 
Something, Say Something,'' just the concern about, general 
concern about terrorism.
    Mr. Duncan. What are some of the techniques they could use 
to raise awareness in the South or the Midwest? You know, is it 
TV spots, is it commercials, is it what?
    Mr. Braniff. I certainly don't have data to support any of 
these opinions. I would suggest that it does make sense to 
continue to focus on urban centers in the South, Midwest, and 
West. Forty percent of the terrorism incidents in the United 
States from 1970 through 2011 occurred in 10 U.S. cities. So 
while terrorism happens in every State in the Union, it does 
tend to happen more frequently in urban centers.
    So targeting those populations, whether through any of the 
media you suggested, I would certainly consider a good idea. I 
wouldn't give up on areas outside of urban centers; that is not 
what I am suggesting. But for bang for the buck, you will get 
more targeting those populations.
    Mr. Duncan. The terrorist attacks on 9/11 happened in the 
urban areas; Boston Marathon, an urban area. But I would argue 
that the Southern Border, being a porous Southern Border--we 
saw the Iran operatives trying to come across our border to 
assassinate the Saudi Ambassador back in the fall of 2011. We 
hear of different nationalities being apprehended in Texas and 
other places that are other than Mexicans, other than 
Hispanics.
    So I think the ``See Something, Say Something'' program 
should be, personally, should be applied to the Southwest, and 
especially in the border counties. So how would you see an 
effective method of that?
    Mr. Braniff. Again, sir, thank you for that question.
    I actually agree entirely. Terrorism is not just about the 
terrorism incident, it is not just about where the bomb goes 
off. Terrorist campaigns are conducted through logistics, 
travel, procurement. We have a lot of research that looks into 
where terrorist organizations or individuals have lived, where 
they have procured, where they have planned, as well as where 
they have targeted.
    So what I would suggest is looking at research that looks 
into specific incidents historically and then tailoring a ``See 
Something, Say Something'' campaign that targets the behaviors 
in play in geographic regions. So if procurement is happening 
in more rural settings to purchase ammonia or fertilizer for 
large explosives, the campaign should be targeted to the actual 
criminal behaviors conducted in those geographic areas. 
Whereas, in the urban center's mass transit, you are talking 
about people leaving a backpack unattended on a platform.
    So I think you can tailor the content to the threat in the 
different geographic regions, and would agree entirely with 
your assessment.
    Mr. Duncan. We just saw yesterday, I think, the report came 
out that one of the NFL stadiums is not going to allow purses 
and backpacks and coolers and that sort of thing. So there are 
some challenges.
    Mr. Pinkham, over the years, chief executive officers have 
become increasingly communicators-in-chief. Think about Bill 
Gates and Steve Jobs, how effective communication transformed 
the way Microsoft and Apple did business.
    But what key communication strategies and techniques should 
Secretary Napolitano or future Secretaries of DHS employ to 
improve communication with the public? What other qualities do 
private-sector CEOs possess that the Secretary should try to 
emulate?
    Mr. Pinkham. Well, I mean, certainly, when you are in a 
very senior leadership position like that, especially heading a 
Government agency, just as you would as a CEO, there is a huge 
symbolic leadership responsibility which can't be taken 
lightly. It is, you know, the fact that you are the Secretary, 
that you are engaged, that you know every aspect of all of your 
operations and your communications strategies.
    So a lot of the, I would imagine, the on-going activities 
of the Secretary now and what it should be is about bringing 
people together, making sure relations are strong with all 
important stakeholders, that the important audiences are aware 
of programs and priorities. That is an awful lot of what CEOs 
do on that level of their job responsibilities, is making sure 
that those, you know, good relationships are built and 
maintained.
    But it is interesting, because Government officials and 
CEOs also face a common challenge, in that the public doesn't 
particularly trust them. We do an annual survey on public 
attitudes toward business and Government, and this is not great 
news for corporate America, but over 90 percent of the public 
does not believe that CEOs have inherently good ethics. That is 
a real problem, because we all know good CEOs and CEOs maybe 
that aren't so good. The same challenge faces Government.
    So one of the most, I think, important strategies is to 
think about where the Secretary's use is most important, like 
at a crisis and building those high-level relationships, and 
where, you know, that relationship should be delegated to 
someone else who might actually be more trusted in the 
community. Especially when you are talking to a community that 
doesn't inherently trust, you know, ``I am from Washington, and 
I am here to help you,'' it can be important to get people from 
the community who can represent the same interests you are 
trying to communicate.
    Mr. Duncan. All right.
    You mentioned in your written testimony, and I think you 
did verbally as well, that high levels of public distrust also 
hamper the ability of both companies and Government to operate 
effectively.
    I mentioned in my statement earlier that proactive 
communication is much better than reactive communication, but 
sometimes they do have to react. When the internet rumors came 
out about the ammo purchases, the MRAP purchases, and the 
numbers were just way out of whack from what reality is and my 
current belief, and we saw this delay or a failure to 
communicate from the Department, that builds distrust, wouldn't 
you agree?
    Mr. Pinkham. Oh, absolutely. I mean, and this is a problem 
the private sector faces, too, you know, where a company--some 
rumor is spread on the internet or a disgruntled employee puts 
out misinformation or accurate information that is an issue but 
not a huge issue, and there are times when companies are 
dismissive because they think that, well, they just don't have 
their facts right, you know, if they knew better, they would 
understand our point of view. Or they state the point of view 
one time and expect that everyone is listening. That doesn't 
happen either.
    So you can't assume that just because you are right, you 
are going to win the day. I mean, that is kind of how we all 
have to think these days. It certainly happens in politics. You 
have to have a compelling story and a narrative that might be, 
hopefully, more compelling than what the other side is saying 
in their various conspiracy theories.
    But you have to be diligent and get out there the first 
day. You have to do scenario planning when you are doing 
something like a major ammo purchase and think, what might go 
wrong? How might certain groups take this the wrong way? How 
can we get everyone in the loop to say, if this thing goes 
south, here is the right message, let's all hang together?
    When you see that work well in the public or private 
sector, it really does work well. But, again, you can't assume, 
just because you are right and they are wrong, that people will 
listen to you.
    Mr. Duncan. Right.
    And show of history. As I said on the ammo purchases, they 
could have rolled out what the last 5-year contract looked like 
and how an increase in agents may have justified an increase in 
the need for ammo, but we didn't see any of that. In fact, we 
saw a failure to communicate for a long period of time.
    You mentioned that social media to proactively communicate 
with customers and counter negative publicity is a great media. 
I agree. We have all sorts of mechanisms at our disposal now, 
with Twitter and Facebook and Instagram, all kinds of things 
that are out there that can reach, you know, millions of people 
instantaneously. So I appreciate your bringing that up.
    My time has expired, and the Chairman will recognize Mr. 
Barber for questioning.
    Mr. Barber. Thank you, Mr. Chairman.
    Thank you to both of the witnesses for being here. I 
thought your testimony was very, very helpful. I believe many 
of the recommendations that you have made here this morning 
could certainly help the Department improve communications.
    I want to talk, first of all, and talk to you, Mr. Braniff, 
about the ``If You See Something, Say Something'' campaign. The 
Chairman alluded to this. Coming from the Southwest as I do, I 
have to tell you, I was involved with being the liaison with 
the CBP for all of my time working for Congresswoman Giffords 
and since then as a Member, and it wasn't until I got here that 
I actually understood that that program was happening. I mean, 
maybe it is a function of how you communicate it. I saw it on 
the Metro, of course, and then in hearings I have heard about 
it.
    But we do have an issue, as the Chairman pointed out, in 
the Southwest. We have a border that is porous, in my district 
very porous, one of the most porous areas of the entire Mexico-
United States border.
    I would like to ask you for specific recommendations, Mr. 
Braniff, on how this campaign can be made more effective in 
those communities. We talked a little bit about it, but could 
get into more specifics?
    I mean, I serve both a rural and an urban district. Tucson 
is the main urban, and then I have a vast array of small 
communities in a county called Cochise County.
    So could you speak to the rural dissemination of 
information and how we might be more effective?
    Mr. Braniff. Ranking Member Barber, thank you for that 
question. This is not my field per se, but I will offer a few 
opinions, for what they are worth.
    The survey suggests that 57 percent of those polled were 
willing to meet with DHS representatives, 58 percent willing to 
meet with local law enforcement. In a smaller rural community, 
I would empower local law enforcement to have community 
meetings where they talk about these issues and educate the 
public.
    I think a public that is educated feels empowered. They 
understand that this isn't a Big Brother campaign; instead, it 
is a campaign that recognizes the value of the American citizen 
and their ability to help defend the country that they live in.
    So I would probably do a lot more community outreach work 
with this campaign in mind, among other campaigns. I wouldn't 
hold a town hall meeting and talk exclusively about terrorism. 
I would talk about all hazards, terrorism among them, just 
based on the likelihood of a natural event. I mean, this is not 
something that happens on a daily basis.
    So I would take an all-hazards approach, a community-
outreach approach in rural areas.
    In urban areas, I would continue to focus on aggregators, 
things that bring people together, just for the most bang for 
the buck. That can be the media, that can be subway platforms, 
as I eluded to earlier.
    One thing that Mr. Pinkham suggested is, you know, the need 
for a compelling narrative. This is something that I would 
tread on very cautiously. It is an idea I will put on the 
table. I don't know that it is a good one upon, you know, more 
sober evaluation.
    But the idea that terrorism has occurred in every State in 
the United States since 1970, it is a fact, means you could 
tell a story about a local incident in every State of the 
Union. You know, terrorism affects us, too, in Nebraska, in New 
Mexico, and tell the story of that incident.
    I say that cautiously because you don't want to fear-monger 
and you don't want to celebrate former acts of terrorism in the 
continental United States. So you have to thread the needle 
between advertising on behalf of a terrorist organization but 
also highlighting to the citizenry that these events, in fact, 
do happen and they do happen in our backyard, albeit 
infrequently.
    Mr. Barber. I would absolutely agree that telling stories 
that resonate with people, farming communities, ranching 
communities in the district that I represent, for example, 
could really help people understand the method or the ways in 
which we might be affected both by terrorism or terrorists and 
by the drug cartels, which are the major issue that we face in 
the Southwest.
    As I have said before, my district, unfortunately, is the 
most porous in the country. Fifty percent, 47 percent of the 
drugs seized in this country by pound are seized right in my 
district, with 13 percent of the border. The ranchers who live 
on the border are perhaps the most aware of anything, and yet I 
am still concerned about how they are engaged by the Department 
in this effort to detect this kind of invasion.
    I want to turn now, if I could, Mr. Pinkham, to ask you 
about a question that I raised with the first panel, but we 
unfortunately didn't get a chance to talk about it a lot. You 
may have some suggestions.
    The Department of Homeland Security, unfortunately, in a 
recent survey that was conducted of 19 Federal agencies, is at 
the bottom of the list when it comes to employee morale.
    I believe, having worked in a large bureaucracy, having run 
a State agency with thousands of employees and thousands of 
customers, that, obviously, information is power, and the more 
you have it, the more timely you have it, the more you trust 
the organization you work for and the better you can serve the 
community and internally feel that you are included.
    It is a real problem with DHS. Do you have specific 
suggestions or recommendations that DHS should pay attention to 
when it is trying to deal with this very serious problem?
    DHS, 22 agencies with their own history and legacy, hard to 
pull together, I get that. But we have to do better on the 
employee morale, which I think is connected to information flow 
and communication.
    Mr. Pinkham. Certainly, I would have to look more 
specifically at, you know, the survey results and to find out 
exactly where the issues of employee dissatisfaction were to 
get a general sense of strategy. But I was shocked by that 
number, as well, when I heard it, sitting back here, because it 
is so important.
    You know, people are increasingly relying on word-of-mouth 
communication, not from the traditional media, and they believe 
what their friends and colleagues say. So if you are a DHS 
employee and you are saying good things about the agency, and I 
enjoy working there, it is satisfying, I am helping my Nation, 
that is going to resonate, not just with their family, but 
their neighbors and their friends. They say, well, Doug works 
at DHS, he loves working there, they are doing great work.
    But if that same person is always complaining about their 
job and that they are not taken seriously and they are not 
treated well and they are dissatisfied, it has a 
disproportionate impact, because people say, well, I wonder 
about what they are doing, and I know a guy who works there, 
and he doesn't even like working there. So it magnifies.
    So that is why employee communications has become such a 
huge priority for big companies and why, for an agency like 
DHS, in many ways, it is perhaps one of the most important 
audiences they face. Because you can't communicate credibly to 
the public if your own employees are, you know, not happy with 
what they are doing or they feel that they are getting mixed 
messages or that they are always being criticized for their 
best efforts.
    But I think it sounds like it really ought to become a big 
priority, you know, from a communications standpoint, not just 
an employee relations standpoint.
    Mr. Barber. Well, let me just close with this request, if I 
could, to your point, Mr. Pinkham, that perhaps if we can get 
you a copy of that study and how it was conducted and what it 
said, you could, if you are willing, take some time to look at 
it and give us some recommendations that we could share with 
the Department. Certainly, I believe my colleagues on this 
committee would be interested in having your ideas about how we 
could improve employee morale and communication.
    Mr. Pinkham. I would be certainly happy to help.
    Mr. Barber. Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Mr. Payne is recognized.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Braniff, just a quick question. What do you recommend 
as the most important step that the Department should take as a 
result of the START survey?
    Mr. Braniff. Sir, as a native of New Jersey, thank you for 
your service, thank you for the question.
    I would, again, I think, go back to the community outreach 
at the local level. I think that is where homeland security 
happens, I think that is where trust is built, and I think it 
has demonstrated its value in other realms. Other sorts of 
community-oriented policing programs have yielded success at a 
local level because they can be tailored to the local level.
    So I think that I would take very positive--I would take 
the survey results very positively, with respect to over 50 
percent of the population would be willing to meet with local 
authorities and Federal authorities to talk about terrorism, 
and I would run with that.
    Mr. Payne. Okay.
    Mr. Pinkham, you know, the Department's leadership has 
taken steps to create ``One DHS.'' I think that is very 
important, you know, that it operates in a unified fashion, 
which is really the challenge.
    How important is Department-wide unification and the 
elimination of the legacy of silos and stovepipes in terms of 
public messaging?
    Mr. Pinkham. It is extremely important in terms of getting 
everyone on the same page and making sure that you are not 
operating in silos. Because, again, big companies face the same 
challenge. You know, you have a huge, multinational company, 
and business units may not talk to each other and may not 
coordinate. That is very dangerous these days, for all kinds of 
reasons. So it is symbolically and organizationally important 
from an employee relations standpoint, you know, one general 
message.
    Where you have to sort of think about it, because there are 
nuances here in that there are branches within DHS that are 
very public-facing, like FEMA and TSA, and they are going to 
need special attention and a special role in terms of how they 
communicate, how much they communicate. Their job is to really 
build rapport with the public, it is not just one-way, because 
of the level of trust that is needed for their jobs day-to-day. 
There are other branches that aren't as public-facing. While 
they all have to have the same messaging, their actual 
strategies and tactics and budgets and priorities may be a 
little to the side and handled differently.
    But the core principles need to be unified. Hopefully, the 
core pride in working for the overall enterprise and agency 
needs to be consistent. You hope people are being cross-trained 
so that, if necessary, they can switch seats and, you know, 
support the agency in general.
    Mr. Payne. Okay. Thank you.
    I think, Mr. Chairman, that is our challenge, to continue 
to get everyone on the same page and understand that bringing 
those 22 entities together and moving forward is the ultimate 
goal. So thank you.
    Mr. Duncan. I want to thank the gentleman.
    I think the most interesting statistic or fact that I heard 
today was in Mr. Pinkham's testimony, written testimony.
    You said only 4 in 10 Americans, or 41 percent, said they 
have a favorable view of the Federal Government. A majority, 58 
percent, said they had not too much or no trust at all that the 
Government can solve problems.
    I think if you broke that down to this agency, DHS as a 
whole, and drilled down into certain specific subagencies like 
TSA, I believe those numbers may be a lot more alarming.
    So, we can do better. I think the agency and Government as 
a whole can do better just by simply communicating better. It 
is not that difficult to do if you follow some of the best 
practices that the private sector has talked about today.
    So, in conclusion, I will ask that DHS will take these 
words to heart, will apply some of these techniques. I think 
you see the concerns on both sides of the aisle with regards to 
where we are at with communicating with the American people 
about the issues that are of the day.
    So I want to thank the witnesses for your valuable 
testimony on both panels.
    I want to thank the Members for their participation and 
their questions today.
    The Members of the committee may have some additional 
questions for both panels, and we would ask you just to respond 
to those in writing.
    We will make sure that the agency gets a copy of those 
answers, as well.
    So, without objection, the subcommittee will adjourn. Thank 
you.
    [Whereupon, at 10:47 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
